<html>
<title> - H.R.1869, ``ENVIRONMENTAL COMPLIANCE COST TRANSPARENCY ACT OF 2015''; H.R. 2993, ``WATER RECYCLING ACCELERATION ACT OF 2015''; AND H.R. 4582, ``SAVE OUR SALMON (SOS) ACT''</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]











 
H.R.1869, ``ENVIRONMENTAL COMPLIANCE COST TRANSPARENCY ACT OF 2015''; 
  H.R. 2993, ``WATER RECYCLING ACCELERATION ACT OF 2015''; AND H.R. 
                  4582, ``SAVE OUR SALMON (SOS) ACT''

=======================================================================

                          LEGISLATIVE HEARING

                               before the

                SUBCOMMITTEE ON WATER, POWER AND OCEANS

                                 of the

                     COMMITTEE ON NATURAL RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                       Wednesday, April 20, 2016

                               __________

                           Serial No. 114-39

                               __________

       Printed for the use of the Committee on Natural Resources



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]





         Available via the World Wide Web: http://www.fdsys.gov
                                   or
          Committee address: http://naturalresources.house.gov
                                  ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

99-892 PDF                     WASHINGTON : 2016 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
                                    
          
          
          
          
          
          
          
          
          
      

                     COMMITTEE ON NATURAL RESOURCES

                        ROB BISHOP, UT, Chairman
            RAUL M. GRIJALVA, AZ, Ranking Democratic Member

Don Young, AK                        Grace F. Napolitano, CA
Louie Gohmert, TX                    Madeleine Z. Bordallo, GU
Doug Lamborn, CO                     Jim Costa, CA
Robert J. Wittman, VA                Gregorio Kilili Camacho Sablan, 
John Fleming, LA                         CNMI
Tom McClintock, CA                   Niki Tsongas, MA
Glenn Thompson, PA                   Pedro R. Pierluisi, PR
Cynthia M. Lummis, WY                Jared Huffman, CA
Dan Benishek, MI                     Raul Ruiz, CA
Jeff Duncan, SC                      Alan S. Lowenthal, CA
Paul A. Gosar, AZ                    Matt Cartwright, PA
Raul R. Labrador, ID                 Donald S. Beyer, Jr., VA
Doug LaMalfa, CA                     Norma J. Torres, CA
Jeff Denham, CA                      Debbie Dingell, MI
Paul Cook, CA                        Ruben Gallego, AZ
Bruce Westerman, AR                  Lois Capps, CA
Garret Graves, LA                    Jared Polis, CO
Dan Newhouse, WA                     Wm. Lacy Clay, MO
Ryan K. Zinke, MT
Jody B. Hice, GA
Aumua Amata Coleman Radewagen, AS
Thomas MacArthur, NJ
Alexander X. Mooney, WV
Cresent Hardy, NV
Darin LaHood, IL

                       Jason Knox, Chief of Staff
                      Lisa Pittman, Chief Counsel
                David Watkins, Democratic Staff Director
                  Sarah Lim, Democratic Chief Counsel
                                 ------                                

                SUBCOMMITTEE ON WATER, POWER AND OCEANS

                       JOHN FLEMING, LA, Chairman
              JARED HUFFMAN, CA, Ranking Democratic Member

Don Young, AK                        Grace F. Napolitano, CA
Robert J. Wittman, VA                Jim Costa, CA
Tom McClintock, CA                   Ruben Gallego, AZ
Cynthia M. Lummis, WY                Madeleine Z. Bordallo, GU
Jeff Duncan, SC                      Gregorio Kilili Camacho Sablan, 
Paul A. Gosar, AZ                        CNMI
Doug LaMalfa, CA                     Raul Ruiz, CA
Jeff Denham, CA                      Alan S. Lowenthal, CA
Garret Graves, LA                    Norma J. Torres, CA
Dan Newhouse, WA                     Debbie Dingell, MI
Thomas MacArthur, NJ                 Raul M. Grijalva, AZ, ex officio
Rob Bishop, UT, ex officio

                                 ------  
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                CONTENTS

                              ----------                              
                                                                   Page

Hearing held on Wednesday, April 20, 2016........................     1

Statement of Members:
    Denham, Hon. Jeff, a Representative in Congress from the 
      State of California, prepared statement of.................    12
    Fleming, Hon. John, a Representative in Congress from the 
      State of Louisiana.........................................     1
        Prepared statement of....................................     3
    Gosar, Hon. Paul A., a Representative in Congress from the 
      State of Arizona...........................................     6
        Prepared statement of....................................     8
    Huffman, Hon. Jared, a Representative in Congress from the 
      State of California........................................     4
        Prepared statement of....................................     5
    Matsui, Hon. Doris O., a Representative in Congress from the 
      State of California........................................     9
        Prepared statement of....................................    10

Statement of Witnesses:
    Downen, Bo, Senior Policy Analyst, Public Power Council, 
      Portland, Oregon...........................................    33
        Prepared statement on H.R. 1869..........................    35
    Hanson, Charles H., Senior Fishery Biologist, Hanson 
      Environmental, Inc. and the State Water Contractors, Walnut 
      Creek, California..........................................    13
        Prepared statement on H.R. 4582..........................    15
    Herberg, Jim, General Manager, Orange County Sanitation 
      District, Fountain Valley, California......................    25
        Prepared statement on H.R. 2993..........................    27
    Iseman, Tom, Deputy Assistant Secretary of Water and Science, 
      U.S. Department of the Interior, Washington, DC............    29
        Prepared statement on H.R. 2993 and H.R. 4582............    31
    Ledger, Patrick F., CEO, Arizona G&T Cooperatives, Benson, 
      Arizona....................................................    37
        Prepared statement on H.R. 1869..........................    38

Additional Materials Submitted for the Record:

    Submissions for the Record by Representative Denham

        Northern California Water Association, prepared statement 
          on H.R. 4582...........................................    52
        Letters of support for H.R. 4582.........................    53
                                     

 LEGISLATIVE HEARING ON H.R. 1869, TO PROVIDE FOR TRANSPARENCY 
AND REPORTING RELATED TO DIRECT AND INDIRECT COSTS INCURRED BY 
  THE BONNEVILLE POWER ADMINISTRATION, THE WESTERN AREA POWER 
ADMINISTRATION, THE SOUTHWESTERN POWER ADMINISTRATION, AND THE 
 SOUTHEASTERN POWER ADMINISTRATION RELATED TO COMPLIANCE WITH 
 ANY FEDERAL ENVIRONMENTAL LAWS IMPACTING THE CONSERVATION OF 
  FISH AND WILDLIFE, AND FOR OTHER PURPOSES, ``ENVIRONMENTAL 
COMPLIANCE COST TRANSPARENCY ACT OF 2015''; H.R. 2993, TO AMEND 
THE RECLAMATION WASTEWATER AND GROUNDWATER STUDY AND FACILITIES 
ACT TO AUTHORIZE FUNDING FOR WATER RECYCLING PROJECTS IN AREAS 
 EXPERIENCING SEVERE, EXTREME, OR EXCEPTIONAL DROUGHT, AND FOR 
 OTHER PURPOSES, ``WATER RECYCLING ACCELERATION ACT OF 2015''; 
AND H.R. 4582, TO EXCLUDE STRIPED BASS FROM THE ANADROMOUS FISH 
   DOUBLING REQUIREMENT IN SECTION 3406(b)(1) OF THE CENTRAL 
VALLEY PROJECT IMPROVEMENT ACT, AND FOR OTHER PURPOSES, ``SAVE 
                     OUR SALMON (SOS) ACT''

                              ----------                              


                       Wednesday, April 20, 2016

                     U.S. House of Representatives

                Subcommittee on Water, Power and Oceans

                     Committee on Natural Resources

                             Washington, DC

                              ----------                              

    The subcommittee met, pursuant to notice, at 10:05 a.m., in 
room 1324, Longworth House Office Building, Hon. John Fleming 
[Chairman of the Subcommittee] presiding.
    Present: Representatives Fleming, Gosar, LaMalfa, Denham, 
Newhouse; Huffman, Napolitano, Costa, Lowenthal, and Torres.
    Dr. Fleming. The Subcommittee on Water, Power and Oceans 
will come to order. The subcommittee meets today to hear 
testimony on H.R. 1869, sponsored by our Vice Chair of the 
Subcommittee, Dr. Gosar; H.R. 2993, sponsored by Ms. Matsui; 
and H.R. 4582, sponsored by Mr. Denham.
    We will begin the hearing with opening statements, and the 
Chair now recognizes himself.

    STATEMENT OF THE HON. JOHN FLEMING, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF LOUISIANA

    Dr. Fleming. Today's hearing is on three well-intended 
bills aimed at improving situations facing water and power 
ratepayers. I thank the bill sponsors for their leadership on 
introducing their legislation.
    There has been a long-standing debate on the role of the 
Federal Government in water projects. Today will not be any 
different.
    For generations, the Federal Government has used the 
National Economic Development process to determine the 
appropriate Federal role in a project. As part of that 
calculation, if the benefits outweigh the costs based on 
certain criteria such as flood control, power generation, water 
supply, and environment, among others, then a project was 
deemed ``feasible.''
    The cost for a feasible project would be allocated to the 
purposes of the project. This meant that the water and power 
ratepayers would pay for their portions of the project. This 
policy is called the ``Beneficiary Pays'' rule, where those who 
benefit from the projects pay for those projects.
    That philosophy, while still in place today for many of the 
Bureau of Reclamation's and Army Corps of Engineers' projects, 
has been shoved aside over the last few decades when it comes 
to certain projects.
    One of those programs is the so-called Title XVI program, 
which was enacted in 1992 and designed to help western 
communities recycle and desalinate water. These are laudable 
goals. But the question has always been over what the Federal 
nexus is for these simple projects, especially when those local 
communities are not required to pay back the 25 percent Federal 
cost share, and that these projects do not undergo a rigorous 
National Economic Development stress test like other projects.
    To bring it home, why should the taxpayers in Louisiana 
help pay for a single-purpose water recycling or desalination 
project that is owned by a California city that is the sole 
beneficiary?
    H.R. 2993, introduced by our colleague, Doris Matsui, makes 
this situation even worse by giving the Interior Secretary 
discretion to create these so-called Title XVI projects. This 
would allow the program to spiral out of control and create an 
even bigger Federal taxpayer backlog for these projects. We 
need to subject this program to the ``Beneficiary Pays'' rule, 
and the National Economic Development process to start, not 
loosen the rules any further, as this bill does.
    The next bill actually improves how the Federal Government 
operates and was borne out of a recent oversight hearing in 
this subcommittee. Mr. Denham's bill, H.R. 4582, eliminates an 
outdated and conflicting fish-doubling requirement imposed by 
another 1992 law, the Central Valley Project Improvement Act.
    The Federal law, as it stands today, requires the 
population of striped bass and salmon to be doubled in 
California. That sounds like another laudable goal. But it 
simply does not pass the laugh test after we heard that striped 
bass, an invasive species, are devouring vast amounts of 
salmon, a native and endangered species that ratepayers devote 
hundreds of millions of dollars to recover.
    This is an instance where one Federal environmental law is 
prioritizing non-native species over the goals of the 
Endangered Species Act. That needs to stop, and that is what 
Mr. Denham's bipartisan bill accomplishes at no cost to the 
American taxpayer.
    Last, we have Dr. Gosar's H.R. 1869, which requires four 
Federal agencies to be more transparent in how Federal 
environmental laws impact some electricity ratepayers. This 
bill provides wholesale electric customers a mechanism to 
better understand what they are paying for, and to debate 
whether these costs are effective, ineffective, or somewhere in 
the middle. This bill rightly shines a light on the government 
by providing more information for those who pay an agency's 
bills.
    With that, I welcome today's debate and thank our witnesses 
for being here.
    [The prepared statement of Dr. Fleming follows:]
Prepared Statement of the Hon. John Fleming, Chairman, Subcommittee on 
                        Water, Power and Oceans
    Today's hearing is on three well-intended bills aimed at improving 
situations facing water and power ratepayers. I thank the bill sponsors 
for their leadership on introducing their legislation.
    There has been a long-standing debate on the role of the Federal 
Government in water projects. Today will not be any different.
    For generations, the Federal Government has used the National 
Economic Development process to determine the appropriate Federal role 
in a project. As part of that calculation, if the benefits outweighed 
the costs based on certain criteria such as flood control, power 
generation water supply, and the environment among others, then a 
project was deemed ``feasible.'' The costs for a feasible project would 
be allocated to the purposes of the project. This meant that water and 
power ratepayers would pay for their portions of the project. This 
policy is called the ``Beneficiary Pays'' rule, where those who benefit 
from the projects pay for those projects.
    That philosophy, while still in place today for many of the Bureau 
of Reclamation's and Army Corps of Engineers' projects, has been shoved 
aside over the last few decades when it comes to certain projects. One 
of those programs is the so-called Title XVI program, which was enacted 
in 1992 and designed to help western communities recycle and desalinate 
water. These are laudable goals, but the question has always been over 
what the Federal nexus is for these simple projects--especially when 
those local communities are not required to pay back the 25 percent 
Federal cost share and that these projects do not undergo a rigorous 
National Economic Development stress test like other projects. To bring 
it home, why should the taxpayers in Louisiana help pay for a single-
purpose water recycling or desalination project that is owned by a 
California city that is the sole beneficiary?
    H.R. 2993, introduced by our colleague, Doris Matsui, makes this 
situation even worse by giving the Interior Secretary discretion to 
create these so-called Title XVI projects. This would allow the program 
to spiral out of control and create an even bigger Federal taxpayer 
backlog for these projects. We need to subject this program to the 
``Beneficiary Pays'' rule and the National Economic Development process 
to start, not loosen the rules any further as this bill does.
    The next bill actually improves how the Federal Government operates 
and was borne out of a recent oversight hearing in this subcommittee. 
Mr. Denham's bill, H.R. 4582, eliminates an outdated and conflicting 
fish-doubling requirement imposed by another 1992 law, the Central 
Valley Project Improvement Act. The Federal law, as it stands today, 
requires the population of striped bass and salmon to be doubled in 
California. That sounds like another laudable goal, but it simply 
doesn't pass the laugh test after we heard that striped bass--an 
invasive species--are devouring vast amounts of salmon--a native and 
endangered species that ratepayers devote hundreds of millions of 
dollars to recover. This is an instance where one Federal environmental 
law is prioritizing non-native species over the goals of the Endangered 
Species Act. That needs to stop and that's what Mr. Denham's bipartisan 
bill accomplishes at no cost to the American taxpayer.
    Last, we have Dr. Gosar's H.R. 1869, which requires four Federal 
agencies to be more transparent in how Federal environmental laws 
impact some electricity ratepayers. This bill provides wholesale 
electric customers a mechanism to better understand what they are 
paying for and to debate whether these costs are effective, ineffective 
or somewhere in the middle. This bill rightly shines a light on 
government by providing more information for those who pay an agency's 
bills.
    With that, I welcome today's debate and thank our witnesses for 
being here.

                                 ______
                                 

    Dr. Fleming. The Chair now recognizes Mr. Huffman for his 
statement.

   STATEMENT OF THE HON. JARED HUFFMAN, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mr. Huffman. Good morning, Mr. Chairman. Welcome to the 
witnesses. I am looking forward to a good discussion on these 
bills today.
    First on the agenda we have H.R. 4582, also known as the 
Save our Salmon Act, offered by my friend, Jeff Denham. This 
bill would amend the Central Valley Project Improvement Act, or 
CVPIA, to exempt striped bass from the anadromous fish doubling 
goals in light of concerns that striped bass prey on endangered 
salmon.
    The science tells us that we ought to be focused on 
habitat, temperature, and flow as far greater concerns than 
predation. But I do want to commend Representative Denham for 
his concern about California salmon runs. And perhaps this is 
the beginning of a shared interest, where we can work together 
to do some good things for salmon.
    As Congressman Denham and the Chairman know, California's 
salmon runs sustain numerous jobs in my district. Currently, I 
am sorry to say, we have what can only be described as a salmon 
crisis in California. According to some estimates, 78 percent 
of our native salmon will be extinct or extirpated within the 
next century if current trends continue.
    Last year, the mortality rate for Sacramento winter-run 
salmon was 97 percent. The year before that, it was 95 percent. 
Simply put, Mr. Chairman, many California fishermen are hanging 
on by a thread. Boats are being scrapped because their owners 
cannot pay mooring fees. Fishermen are struggling to pay 
mortgages. Restaurants, hotels, and other businesses that 
depend on healthy fish runs are struggling just to get by.
    And even now, many are still recovering from the total 
closure of the ocean salmon fishery along the West Coast in 
2008 and 2009. That was because of poor California salmon 
returns in those years. The closure devastated the Pacific 
Coast fishing industry. Ultimately, it required many millions 
of dollars in Federal disaster aid. And, just last month, in an 
ominous sign, fishery managers again announced that the 
commercial salmon season off the West Coast for this summer 
will be severely restricted. This will be the second year in a 
row because of very low population levels.
    So, Mr. Chairman, Congress and the Administration need to 
be proactive and bold in addressing the salmon crisis. And even 
though H.R. 4582 focuses on predation, it is important to 
remember that the science clearly tells us there are more 
important stressors we need to address before our salmon runs 
are going to recover.
    Unsustainable water exports from our rivers, degraded 
habitat conditions, a lack of sufficient cold water, all of 
these are essential to sustaining our fisheries. And while they 
are politically difficult, we have to deal with these other 
stressors that everyone knows prevent salmon recovery. 
Otherwise, we will just be writing off thousands of jobs that 
are very important to my district and beyond, including 
throughout California, Oregon, and Washington.
    H.R. 4582 will not help California salmon. But, as I said, 
I hope it moves us toward finally working together on things 
that will help salmon recovery, including smarter water policy, 
updating our reservoir operations, and working on habitat 
conservation measures.
    Moving to the second bill, H.R. 1869, offered by Vice 
Chairman Gosar, this is a bill that would require the PMAs to 
make a special note on customers' bills highlighting the cost 
of complying with fish and wildlife protections.
    I think Mr. Gosar's laudable goal is transparency and 
disclosure of costs. If that is the case, I would suggest that 
the legislation also require inclusion on bills of all costs 
that affect power rates, such as the cost of irrigation, 
transmission, and failed investments like the Bonneville Power 
Administration's nuclear plant default, which ratepayers have 
been on the hook paying back for decades. We could actually 
require these bills to note what the power would cost if market 
rates were being charged, like most other places in the 
country, rather than taxpayer-subsidized cost-based rates.
    Maybe we could also include a line item on customer bills 
that shows the discount that the Power Administration customers 
are getting from U.S. taxpayers subsidizing the construction of 
hydro-dams that generate most of their power. While we are at 
it, we could list the economic benefits of robust ecosystems 
that PMA mitigation activities actually support. These are 
things with huge economic benefits to the American people. They 
pay for themselves many times over.
    So, if we really care about transparency, let's not cherry-
pick a sliver of misleading information to include on 
customers' power bills, while excluding all other relevant 
information. Let's include all of it, or better yet, maybe 
let's leave these bills alone.
    Last on today's agenda we have H.R. 2993, offered by my 
friend, Doris Matsui. This is a common-sense surgical piece of 
legislation. It would remove the existing requirement that 
potential water recycling projects have to first receive a 
project-specific authorization from Congress. This will help us 
stretch our western water supplies. That has always been 
discussed as something in the national interest. I hope we will 
keep that in mind today as we consider this important bill.
    Thank you, Mr. Chair.
    [The prepared statement of Mr. Huffman follows:]
     Prepared Statement of the Hon. Jared Huffman, Ranking Member, 
                Subcommittee on Water, Power and Oceans
    Good morning, Mr. Chairman. Welcome to the witnesses. I'm looking 
forward to a good discussion on these bills today.
    Now first on the agenda we have H.R. 4582, also known as the Save 
Our Salmon Act, offered by my friend Jeff Denham. Now this bill would 
amend the Central Valley Project Improvement Act, or CVPIA, to exempt 
striped bass from the anadromous fish doubling goals in light of 
concerns that striped bass prey on endangered salmon. Now the science 
tells us that we ought to be focused on habitat, temperature, and flow 
as far greater concerns than predation, but I do want to commend 
Representative Denham for his concern about California's salmon runs. 
And perhaps this is the beginning of a shared interest where we can 
work together to do some good things for salmon.
    As Congressman Denham and the Chairman know, California's salmon 
runs sustain numerous jobs in my district and currently, I'm sorry to 
say, we have what can only be described as a salmon crisis in 
California. According to some estimates, 78 percent of our native 
salmon will be extinct or extirpated within the next century if current 
trends continue. Last year the mortality rate for Sacramento winter-run 
salmon was 97 percent. The year before that, it was 95 percent.
    Simply put, Mr. Chairman, many California fishermen are hanging on 
by a thread. Boats are being scrapped because their owners can't pay 
mooring fees. Fishermen are struggling to pay mortgages. Restaurants, 
hotels, other businesses that depend on healthy fish runs are 
struggling just to get by.
    And even now, many are still recovering from the total closure of 
the ocean salmon fishery along the West Coast in 2008 and 2009--that 
was because of poor California salmon returns in those years. The 
closure devastated the Pacific Coast fishing industry. Ultimately, it 
required many millions of dollars in Federal disaster aid. And just 
last month, in an ominous sign, fishery managers again announced that 
the commercial salmon season off the West Coast for this summer will be 
severely restricted. This will be the second year in a row because of 
very low population levels.
    So Mr. Chairman, Congress and the Administration need to be 
proactive and bold in addressing the salmon crisis. And even though 
H.R. 4582 focuses on predation, it's important to remember that the 
science clearly tells us there are more important stressors we need to 
address before our salmon runs are going to recover. Unsustainable 
water exports from our rivers, degraded habitat conditions, a lack of 
sufficient cold water, all of these are essential to sustaining our 
fisheries.
    And while they're politically difficult, we have to deal with these 
other stressors that everyone knows prevent salmon recovery. Otherwise 
we'll just be writing off thousands of jobs that are very important to 
my district and beyond including throughout California, Oregon, and 
Washington. H.R. 4582 won't help California salmon but, as I said, I 
hope it moves us toward finally working together on things that will 
help salmon recovery including smarter water policy, updating our 
reservoir operations, and working on habitat conservation measures.
    Moving to the second bill, H.R. 1869 offered by Vice-Chairman 
Gosar. This is a bill that would require the PMAs to make a special 
note on customers' bills highlighting the cost of complying with fish 
and wildlife protections. Now I think Mr. Gosar's laudable goal is 
transparency and disclosure of costs. If that is the case, I would 
suggest that the legislation also require inclusion on bills of all 
costs that affect power rates, such as the cost of irrigation, 
transmission, and failed investments like the Bonneville Power 
Administration's nuclear plant default, which ratepayers have been on 
the hook paying back for decades.
    We could actually require these power bills to note what the power 
would cost if market rates were being charged like most other places in 
the country--rather than taxpayer subsidized ``cost-based'' rates. 
Maybe we could also include a line item on customer bills that show the 
discount that the Power Administration customers are getting from U.S. 
taxpayers subsidizing the construction of the hydro dams that generate 
most of their power.
    While we're at it, we could list the economic benefits of robust 
ecosystems that PMA mitigation activities actually support. These are 
things with huge economic benefits to the American people. They pay for 
themselves many times over. So if we really care about transparency, 
let's not cherry pick a sliver of misleading information to include on 
customers' power bills while excluding all other relevant information. 
Let's include all of it, or better yet, maybe let's leave these bills 
alone.
    Last on today's agenda we have H.R. 2993, offered by my friend 
Doris Matsui. This is a common sense, surgical piece of legislation. It 
would remove the existing requirement that potential water recycling 
projects have to first receive a project-specific authorization from 
Congress. This will help us stretch our western water supplies. That's 
always been discussed as something in the national interest. I hope 
we'll keep that in mind today as we consider this important bill.

    Thank you, Mr. Chair.

                                 ______
                                 

    Dr. Fleming. I thank the gentleman.
    Dr. Gosar is now recognized for 5 minutes.

   STATEMENT OF THE HON. PAUL A. GOSAR, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF ARIZONA

    Dr. Gosar. Thank you, Mr. Chairman, for holding today's 
hearing. Today is a step toward making common-sense, bipartisan 
improvements in Federal law. I commend our committee colleague, 
Mr. Denham, for introducing his bill to help protect endangered 
salmon from the voracious appetites of non-native striped bass 
in California.
    Ratepayers and taxpayers pay to help recover these salmon, 
only to see them devoured by the millions from predatory fish 
that are also protected by Federal law. The conflicts between 
these two fish and the laws that protect them is worthy of a 
mention in Paul Gosar's Top 10 ``You Can't Believe Your 
Government is This Dysfunctional'' list. Fortunately, this 
bill, if enacted, will remove this policy from my list.
    Another bill, the Environmental Compliance Cost 
Transparency Act, from Yours Truly, requires needed Federal 
transparency from the four power marketing administrations, or 
PMAs. These Federal agencies sell 42 percent of our Nation's 
hydropower resources to hundreds of wholesale customers 
throughout the West and the South. These nonprofit utilities 
comprised of cities, towns, rural electric cooperatives, 
irrigation districts, and Native Americans bear the full cost 
of the environmental mandates imposed on the PMAs.
    The millions of retail customers served by these wholesale 
utilities eat the cost of the Endangered Species Act, the Grand 
Canyon Protection Act, the Central Valley Project Improvement 
Act, and other Federal environmental laws. These costs result 
in direct expenditures, such as environmental studies, capital 
outlays, and operation and maintenance and staff costs. 
Indirect costs include lost hydropower and replacement power 
costs. These combined costs can be real.
    In the Pacific Northwest, 30 percent of the rates are 
related to environmental costs and the Glen Canyon Dam flows in 
Arizona can cost its customers up to $50 million annually, due 
to foregone power.
    My bipartisan bill requires the PMAs to provide these costs 
on a monthly basis to their customers. It does not repeal or 
change any environmental laws, it simply requires transparency 
and helps those who are paying for the bills to better 
understand what they are actually paying for. And it focuses on 
one of the most variable costs that are growing faster than 
many of the more fixed cost items.
    This bill is the result of years of work and input from the 
PMAs and the customers they serve. As an example, the 
Bonneville Power Administration testified that a prior bill 
should be changed so that all fish and wildlife costs should be 
included, not just Endangered Species Act costs. That change 
has been made.
    [Slide]
    Dr. Gosar. That agency, under this Administration, even 
stated--and I quote, if you will turn to the monitor--``shares 
the interest in accountability that prompts this legislation. 
Power bills result from complicated calculations and the public 
debate about what affects power rates often strays from hard 
numbers. The bill would take a step towards clarifying the 
matter.''
    Someone suggested this bill will increase electricity 
rates. Nonsense. The PMAs have testified that it would not cost 
anything, and customers support this bill.
    Ms. Leslie James, the Executive Director of the Colorado 
River Energy Distributors Association, testified--and I quote, 
if you will look at the monitor again--``It is our 
understanding that this information is readily available and 
can be provided at little or no incremental cost.'' The 
problem, as we will hear later, is that one agency does not 
make this information transparent. To that end, let me refer 
you again to another customer group that supports this bill.
    If you will look to the monitor again, Mr. Joe Kay, from 
the Grand Canyon State Electric Cooperative Association said, 
``Your legislation will allow for a better understanding of how 
those costs are derived. Moreover, through transparency and 
discussion, your legislation will lead to better business 
practices and improved communication between customers and 
PMAs.''
    Some in the so-called environmental community oppose this 
bill because they fear transparency and the debate that may 
happen with that transparency. Well, that debate is sorely 
needed.
    In closing, I welcome the witnesses before us, and I yield 
back what little time I have left. Thank you, Mr. Chairman.
    [The prepared statement of Dr. Gosar follows:]
   Prepared Statement of the Hon. Paul A. Gosar, a Representative in 
                   Congress from the State of Arizona
    Thank you for holding today's hearing. Today is a step toward 
making common-sense, bipartisan improvements in Federal law.
    I commend our committee colleague, Mr. Denham, for introducing his 
bill to help protect endangered salmon from the voracious appetites of 
non-native striped bass in California. Ratepayers and taxpayers pay to 
help recover these salmon, only to see them devoured by the millions 
from predatory fish that are also protected by Federal law. The 
conflicts between these two fish and the laws that protect them is 
worthy of a mention in Paul Gosar's Top 10 ``You Can't Believe Your 
Government is This Dysfunctional'' list. Fortunately, this bill, if 
enacted, will remove this policy from my list.
    Another bill--the Environmental Compliance Cost Transparency Act--
from yours truly, requires needed Federal transparency from the four 
Power Marketing Administrations--or PMAs. These Federal agencies sell 
42 percent of our Nation's hydropower resources to hundreds of 
wholesale customers throughout the West and the South. These non-profit 
utilities, comprised of cities, towns, rural electric cooperatives, 
irrigation districts and Native Americans, bear the full costs of the 
environmental mandates imposed on the PMAs. The millions of retail 
consumers served by these wholesale utilities eat the costs of the 
Endangered Species Act, the Grand Canyon Protection Act, the Central 
Valley Project Improvement Act and other Federal environmental laws.
    These costs result in direct expenditures such as environmental 
studies, capital outlays and operation and maintenance and staff costs. 
Indirect costs include lost hydropower and replacement power costs. 
These combined costs can be real: In the Pacific Northwest, 30 percent 
of the rates are related to environmental costs and the Glen Canyon Dam 
flows in Arizona can cost its customers up to $50 million annually due 
to foregone power.
    My bipartisan bill requires the PMAs to provide these costs on a 
monthly basis to their customers. It does not repeal or change any 
environmental laws; it simply requires transparency and helps those who 
are paying the bills to better understand what they are actually paying 
for. And, it focuses on one of the most variable costs that are growing 
faster than other more fixed costs.
    This bill is the result of years of work and input from the PMAs 
and the customers they serve. As an example, the Bonneville Power 
Administration testified that a prior bill should be changed so that 
ALL fish and wildlife account costs should be included--not just 
Endangered Species Act costs. That change has been made. That agency, 
under this Administration, even stated and I quote, ``shares the 
interest in accountability that prompts this legislation. Power bills 
result from complicated calculations and the public debate about what 
affects power rates often strays from hard numbers. The bill would take 
a step toward clarifying the matter.''
    Some have suggested that this bill will increase electricity rates. 
Nonsense. The PMAs have testified that it would not and customers 
support this bill. Ms. Leslie James, the Executive Director of the 
Colorado River Energy Distributors Association, testified that, ``It is 
our understanding that this information is readily available and can be 
provided at little or no incremental cost.''
    Let me refer you to another customer group that supports the bill--
Mr. Joe Kay from the Grand Canyon State Electric Cooperative 
Association said, ``Your legislation will allow for a better 
understanding of how those costs are derived. Moreover, through 
transparency and discussion your legislation will lead to better 
business practices and improved communication between customers and 
PMAs.''
    Some in the so-called environmental community oppose this bill 
because they fear transparency and the debate that may happen with that 
transparency. That debate is sorely needed.
    In closing, I welcome the witnesses before us and yield back the 
little time I have left.

                                 ______
                                 

    Dr. Fleming. Thank you, Dr. Gosar.
    Well, since Dr. Gosar just described his bill, the Chair 
will now recognize Ms. Matsui of California to describe your 
bill, H.R. 2993.
    You are now recognized for 5 minutes.

  STATEMENT OF THE HON. DORIS O. MATSUI, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Ms. Matsui. Mr. Chairman, Ranking Member Huffman, and 
distinguished members of the committee, thank you very much for 
holding this hearing today, and inviting me to testify on my 
bill, the Water Recycling Acceleration Act.
    As your subcommittee knows well, the West continues to face 
severe drought conditions. In California, this has reignited 
generations-old disputes over our limited water resources. The 
answer to our drought challenges is not taking water from one 
group or region in order to benefit another. Instead, we should 
be looking at ways to generate new water sources which benefit 
all water users.
    When considering new sources, we should consider all 
options, including water recycling. Water recycling is a proven 
technology that has expanded water resources for millions of 
Americans.
    The Bureau of Reclamation currently supports water 
recycling projects through its Title XVI program, which funds 
the study and construction of projects that reclaim and reuse 
wastewater and naturally impaired ground and surface water. 
This program has had a record of success since its 
establishment in 1992, facilitating the production of hundreds 
of thousands of acre-feet of recycled water annually, and 
leveraging $2.4 billion in non-Federal funding.
    But while the program is strong, the project selection 
process under the Title XVI is broken. Currently, projects must 
be individually authorized by Congress before they can compete 
for program funding. Due to the earmark ban, authorizing new 
projects is nearly impossible. In fact, despite years of 
devastating drought, we have not had a new Title XVI 
authorization since 2009.
    My bill would remove the requirement that projects funded 
under the Title XVI program must receive individual 
congressional authorization, thereby expanding the pool of 
water recycling projects the Bureau is able to consider. 
Because Title XVI is an over-subscribed program, we should be 
prioritizing the most beneficial and deserving projects. The 
best way to do this is to allow more projects to compete for 
funding.
    Additionally, my bill lays out a Title XVI program that is 
earmark-free, and requires projects to meet comprehensive 
criteria in order to compete and qualify for funds. These 
criteria ensure that we are providing funding for projects that 
have multiple benefits and serve the needs of an entire region. 
This new way of distributing funding would facilitate a more 
competitive process that makes our Federal water recycling 
infrastructure construction dollars go further, and it 
prioritizes projects in drought-stricken areas, which is 
critical given the current challenges facing the West.
    And, the changes made by my bill do not require Congress to 
increase spending. Congress would continue to have complete 
control over the Title XVI appropriations allocation. These 
changes to Title XVI and the expansion of water recycling and 
reuse help us to decouple the West's water supply from 
unpredictable weather and precipitation conditions. By moving 
toward a sustainable water supply that is more resilient to 
drought, we can benefit all water users, whether urban, 
agricultural, or environmental.
    In Sacramento, we are exploring our own water recycling 
project. If built, this recycling project in Sacramento will 
provide the region with an opportunity to use wastewater in a 
more beneficial way. By piping reclaimed water to farms and 
habitat mitigation lands in the county, we can irrigate up to 
18,000 acres of farmland and habitat.
    This would help our local farmers by providing them with a 
reliable water source that they can count on, even during 
extreme drought. But it would also reduce our farmers' reliance 
on groundwater and replenish our aquifer. And by using recycled 
water for agriculture, more potable water would remain for 
urban uses. Importantly, this water would be affordable. In 
fact, as technologies continue to improve, the price of 
recycled water will continue to drop.
    In conclusion, we must continue to expand the role of 
recycling as we envision the future of our water resources. As 
our population grows, all types of water sources must be 
considered to ensure that the West continues to prosper. I ask 
that you consider supporting the Water Recycling Acceleration 
Act as it moves through your committee.
    Thank you, Mr. Chairman. Thank you, members of the 
committee.
    [The prepared statement of Ms. Matsui follows:]
  Prepared Statement of the Hon. Doris O. Matsui, a Representative in 
                 Congress from the State of California
    Thank you Chairman Fleming, Ranking Member Huffman, and 
distinguished members of the committee for holding this hearing today 
and inviting me to testify on my bill, the Water Recycling Acceleration 
Act.
    As your subcommittee knows well, the West continues to face severe 
drought conditions. In California this has reignited generations-old 
disputes over our limited water resources. The answer to our drought 
challenges is not taking water from one group or region in order to 
benefit another. Instead, we should be looking at ways to generate new 
water sources which benefit all water users.
    When considering new sources, I believe we should consider all 
options, including water recycling. Water recycling is a proven 
technology that has expanded water resources for millions of Americans.
    The Bureau of Reclamation currently supports water recycling 
projects through its Title XVI program, which funds the study and 
construction of projects that reclaim and reuse wastewater and 
naturally impaired ground and surface water. This program has had a 
record of success since its establishment in 1992, facilitating the 
production of hundreds of thousands of acre-feet of recycled water 
annually and leveraging $2.4 billion in non-Federal funding.
    But while the program is strong, the project selection process 
under Title XVI is broken. Currently, projects must be individually 
authorized by Congress before they can compete for program funding. Due 
to the earmark ban, authorizing new projects is nearly impossible. In 
fact, despite years of devastating drought we haven't had a new Title 
XVI authorization since 2009.
    My bill would remove the requirement that projects funded under the 
Title XVI program must receive individual congressional authorization, 
thereby expanding the pool of water recycling projects the Bureau is 
able to consider. Because Title XVI is an oversubscribed program we 
should be prioritizing the most beneficial and deserving projects. The 
best way to do this is to allow more projects to compete for funding.
    Additionally, my bill lays out a Title XVI program that is earmark-
free and requires projects to meet comprehensive criteria in order to 
qualify for funds. These criteria ensure that we are providing funding 
for projects that have multiple benefits and serve the needs of an 
entire region. This new way of distributing funding would facilitate a 
more competitive process that makes our Federal water recycling 
infrastructure construction dollars go further. And it prioritizes 
projects in drought stricken areas, which is critical given the current 
challenges facing the West.
    And, the changes made by my bill do not require Congress to 
increase spending. Congress would continue to have complete control 
over the Title XVI appropriations allocation. These changes to Title 
XVI and the expansion of water recycling and reuse can help us decouple 
the West's water supply from unpredictable weather and precipitation 
conditions. By moving toward a sustainable water supply that is more 
resilient to drought we can benefit all water users, whether urban, 
agricultural, or environmental.
    In Sacramento, we are exploring our own water recycling project. If 
built, the recycling project in Sacramento will provide the region with 
an opportunity to use wastewater in a more beneficial way. By piping 
reclaimed water to farms and habitat mitigation lands in the county we 
could irrigate up to 18,000 acres of farmland and habitat.
    This would help our local farmers by providing them with a reliable 
water source that they can count on even during extreme drought. But it 
would also reduce our farmers' reliance on groundwater and replenish 
our aquifer. And by using recycled water for agriculture . . . more 
potable water would remain for urban uses. Importantly, this water will 
be affordable. In fact, as technologies continue to improve the price 
of recycled water will continue to drop.
    In conclusion, we must continue to expand the role of recycling as 
we envision the future of our water resources. As our population grows, 
all types of water sources must be considered to ensure that the West 
continues to prosper.
    I ask that you support the Water Recycling Acceleration Act as it 
moves through your committee. Thank you, Mr. Chairman.

                                 ______
                                 

    Dr. Fleming. I thank the gentlelady. We do not do formal 
questions to Members who testify, but I will open the dais for 
any follow-up questions that Members may have for Ms. Matsui.
    [No response.]
    Dr. Fleming. If not, we will--oh, do you have one? Go 
ahead. Or a statement, if you have a statement.
    Mr. Costa. No, I want to commend the Congresswoman. I think 
this provides flexibility for Congress to try to deal with 
issues that are particular to our various congressional 
districts across the country. And this measure with Title XVI 
gives us that flexibility in using other management tools.
    Yesterday, I pointed out that we do not have a recovery 
plan for the Delta smelt. There are a host of issues, whether 
it is the tertiary treatment on the city of Sacramento, as the 
Congresswoman pointed out in her testimony, or whether there 
are other issues in our respective districts that we can use 
the ability that--in the past was an option with earmarks, but 
since we do not have earmarks these days, that is no longer an 
option. But this creates an opportunity, in fact, to do so.
    I think that it should receive bipartisan support because, 
clearly, we all have different circumstances in our 
congressional districts and in regions that we represent in 
which we want to try to address issues, but we are hand-tied in 
doing so. I think this legislation would go a long ways toward 
assisting us in that effort.
    Dr. Fleming. OK.
    Mr. Huffman. I also want to commend Congresswoman Matsui. 
We have an awful lot of water recycling projects that are ready 
to go throughout the West, and it has been a source of great 
frustration that Title XVI has really been stalled for several 
years now, and the Federal Government has been on the 
sidelines, not partnering with states and local water districts 
to move these supply projects forward.
    I think some of that has just been out of stubborn 
ideology, applying some sort of a rigid Beneficiary Pays 
Principle to these projects. But if you look at what has 
happened as we have sat on the sidelines these last few years 
out of stubbornness on the Title XVI program, we have sent a 
lot more money than that in emergency drought relief to the 
state of California. Here are projects that have been ready to 
go, that are ready to go, that will make our state far more 
drought-resilient.
    So, we can pay now or we can pay later. This is a bill that 
will help make sure that our Federal dollars are leveraged far 
more efficiently and effectively. So I commend the author, and 
hope this is something that we can take a serious, objective 
look at, and try to work on together.
    Dr. Fleming. OK. Again, we thank the gentlelady. And 
certainly you are welcome to stick around or get back to your 
important duties. But we thank you.
    Ms. Matsui. Thank you.
    Dr. Fleming. Our next panel can now go ahead and begin 
moving forward.
    As Mr. Denham is not here to give a statement--he is tied 
up at the moment in another committee meeting--he has provided 
a statement for the record. So I ask unanimous consent to enter 
it into the record.
    [No response.]
    Dr. Fleming. Hearing no objection, so ordered.
    [The prepared statement of Mr. Denham follows:]
    Prepared Statement of the Hon. Jeff Denham, a Representative in 
                 Congress from the State of California
    Chairman Fleming, thank you for holding this important legislative 
hearing today.
    Over the past year, our committee has heard a recurring theme in 
hearings that predation is a key stressor in efforts to protect fish 
listed under the Endangered Species Act, especially in California.
    In February, this subcommittee held an oversight hearing on 
predation, and a National Marine Fisheries Service witness testified 
that some salmonid populations in California are ``extremely low due to 
an abundance of striped bass.'' As the oversight hearing highlighted, 
in California, the problem of predation has been perpetuated in part by 
a counterintuitive provision in the Central Valley Project Improvement 
Act of 1992.
    As part of an effort to protect fish populations, the CVPIA 
mandated population doubling for all anadromous fish. This requirement 
applies to the endangered salmon and their non-native predator, the 
striped bass.
    Quite simply, my bill, H.R. 4582, the ``Save our Salmon Act'' aims 
to remove this doubling requirement for striped bass.
    I am grateful for the bipartisan support and local interest that is 
growing behind my common-sense bill. To that end, I would like to make 
a motion to include these letters of support, representing 15 
irrigation and water districts or associations throughout California, 
in the official record.
    I would like to thank Dr. Hanson and Mr. Iseman for their testimony 
here today. I find your opinions and technical insights most 
informative and I look forward to working with the U.S. Department of 
the Interior to make the technical changes necessary to accomplish my 
bill's intent.
    Thank you both for your endorsement and with that I yield back.

                                 ______
                                 

    Dr. Fleming. As our panel--yes, go ahead and move forward, 
please, and I will be introducing you as you step forward.
    First we have Dr. Charles Hanson, Senior Fishery Biologist 
of Hanson Environmental, Incorporated. It is located in Walnut 
Creek, California. Dr. Hanson is also representing the State 
Water Contractors today. Dr. Hanson will testify on H.R. 4582.
    Next is Mr. Jim Herberg, General Manager of the Orange 
County Sanitation District, which is based out of Fountain 
Valley, California. Mr. Herberg will testify on H.R. 2993.
    Mr. Tom Iseman, Deputy Assistant Secretary of Water and 
Science at the U.S. Department of the Interior in Washington, 
DC. Mr. Iseman will testify on H.R. 2993 and 4582.
    Mr. Bo Downen, Senior Policy Analyst for the Public Power 
Council, which is in Portland, Oregon. Mr. Downen will testify 
on H.R. 1869.
    And, Mr. Patrick Ledger, CEO of Arizona G&T Cooperatives in 
Benson, Arizona. Mr. Ledger will also testify on H.R. 1869.
    I would also like to note that the Department of Energy was 
invited to testify on H.R. 1869, but once again has refused to 
testify before this subcommittee.
    Each witness's written testimony will appear in full in the 
hearing record, and we will have 5 minutes of oral statements.
    The lights work thusly: you will be under a green light for 
the first 4 minutes, then a yellow light for 1 minute; and if 
you have not finished by the time the red light comes on, we 
ask for you to quickly conclude so we can keep things moving.
    Trust me, your written statement, no matter how long it is, 
will be included in the record. And we thank you for appearing 
here today.
    I now recognize Dr. Hanson for your testimony, sir.

   STATEMENT OF CHARLES H. HANSON, SENIOR FISHERY BIOLOGIST, 
  HANSON ENVIRONMENTAL, INC. AND THE STATE WATER CONTRACTORS, 
                    WALNUT CREEK, CALIFORNIA

    Dr. Hanson. Good morning, Chairman Fleming, Ranking Member 
Huffman, and members of the subcommittee. My name is Chuck 
Hanson. I am a fisheries biologist, and as mentioned, I am here 
representing the State Water Contractors.
    My background is: I studied Chinook salmon at the 
University of Washington. I studied striped bass in the Potomac 
and Chesapeake Bay at Johns Hopkins University. I have spent 35 
years working on San Francisco, Sacramento, and San Joaquin Bay 
Delta fisheries issues, and have a Ph.D. from UC Davis.
    This morning I would like to speak on the CVPIA, the 
Central Valley Project Improvement Act, which included an 
anadromous doubling goal and which was inclusive of a variety 
of fish species including non-native striped bass. When the 
CVPIA was being developed back in the late 1980s and early 
1990s, striped bass were viewed as one of the key indicator 
species of the health of the Delta. They were also a very, very 
popular sport and recreational species. So it was natural to 
include them as part of the consideration of various indicators 
of the health of the estuary.
    Starting in the 1990s and continuing to date, however, that 
perspective has changed. Priority has now shifted from non-
native species to recovery of listed native populations. We 
have a number of fish species that inhabit the Bay Delta 
estuary that have been listed under the state or Federal 
Endangered Species Act as either threatened or endangered, and 
those include two runs of Chinook salmon, which I am going to 
focus on this morning.
    [Slide]
    Dr. Hanson. In terms of fish life history, the CVPIA 
includes anadromous species. Anadromous species are those fish 
that live part of their life cycle in the ocean, but return to 
fresh water to spawn. The adults migrate up the rivers, they 
spawn in the upper reaches of the rivers, and then the 
juveniles migrate back down to the ocean to rear. Next slide.
    [Slide]
    Dr. Hanson. This is a map that shows the geographic 
distribution of spring-run Chinook salmon, a threatened species 
in the Sacramento River system. The red indicates areas of 
spawning activity; the greener areas are juvenile rearing and 
migration. The importance of this figure is that all of the 
spring-run Chinook salmon migrate through the Lower Sacramento 
River and the Delta as juveniles on their way from the upstream 
spawning and rearing areas to the coastal marine rearing 
waters. It is an area of constriction, geographically. Next 
slide.
    [Slide]
    Dr. Hanson. The importance of that constriction is that 
these juvenile spring-run Chinook are migrating downstream 
during the spring--typically, March, April, and May--and that 
coincides with the period when adult striped bass are migrating 
upstream into the Lower Sacramento River in preparation of 
spawning.
    So, we have a co-occurrence of adult striped bass, we have 
juvenile Chinook salmon that are migrating at the same time and 
the same location through a reach of the river that is 
channelized, has riprap levies, it is about 500 feet across. 
There is no cover for juveniles to avoid predators. So we have 
a co-occurrence with a predatory fish and their juvenile prey.
    These are results of some acoustic tag survival studies 
done on the Sacramento River. These were with late fall run 
Chinook. The fish were released upstream in the area near Red 
Bluff, then migrated downstream and were monitored in terms of 
their survival. The importance of this figure is that it shows 
by the time those fish reach the Golden Gate, about 90 percent 
had been lost as a result of some source of mortality. This 
does not tell you what the mortality was, but we had about 90 
percent loss, on average, for these Sacramento River fish.
    These are similar results of survival studies conducted on 
the Lower San Joaquin River. Again, for the last decade, 
survival has roughly averaged 5 percent: very, very low 
survival estimates.
    As Mr. Huffman pointed out, predation is not the only cause 
of mortality that occurs in our system. We have a number of 
other stressors. We have had habitat changes. We have cold 
water pool and water temperature issues. We have water project 
operations. We have the dams themselves that create a physical 
blockage to otherwise suitable upstream habitat. There are a 
variety of factors that are all interacting that result in the 
survival rates being so low that I mentioned. Next slide.

    [Slide]

    Dr. Hanson. We have also identified a number of what we 
call predation hot spots. This is Clifton Court Forebay, and 
there is 80 percent mortality across this--about a 1-mile 
reach.
    Striped bass have co-occurred in the Delta for 150 years. 
And the question that arises is, are they the cause of the 
decline of salmon? And the answer to that question is no. They 
are a contributor. Next slide, please.

    [Slide]

    Dr. Hanson. In conclusion, increasing the population 
abundance of a non-native predator as a goal under the CVPIA is 
counterproductive to the goals of the ESA recovery. Salmon 
survival is low on both the Sacramento and San Joaquin River 
systems. Striped bass contribute to that predation mortality, 
and the poor survival that we see reflects a variety of 
stressors. I am an advocate of not saying we should deal with 
the striped bass predation issue in and of itself, but rather 
as a portfolio of diverse actions to help benefit salmon in 
general.

    [The prepared statement of Dr. Hanson follows:]
 Prepared Statement of Charles H. Hanson, Hanson Environmental, Inc., 
      representing California State Water Contractors on H.R. 4582

    Chairman Fleming, Ranking Member Huffman, and members of the 
subcommittee, I am Charles Hanson, Senior Biologist and Principal of 
Hanson Environmental, Inc., located at 446 Green View Court, Walnut 
Creek, California. Thank you for the opportunity to testify before you 
today. I am here representing the State Water Contractors, a statewide, 
non-profit association of 27 public agencies from Northern, Central and 
Southern California that purchase water under contract from the 
California State Water Project. Collectively the State Water 
Contractors deliver water to more than 26 million residents throughout 
the state and more than 750,000 acres of agricultural lands.

    My academic training includes Bachelor of Science and Master of 
Science degrees in fisheries from the University of Washington, College 
of Fisheries, graduate studies in environmental engineering at the 
Johns Hopkins University and a Ph.D. in fisheries and ecology from the 
University of California, Davis. I have been involved in issues related 
to the status of fish species in the Sacramento-San Joaquin-San 
Francisco Bay-Delta since 1976. These issues include state and Federal 
Endangered Species Act studies regarding fisheries populations, 
including the biological monitoring of listed fish species, preparation 
of biological assessments, preparation of habitat conservation plans, 
and service as a member of the United States Fish and Wildlife 
Service's (USFWS) Sacramento-San Joaquin Delta Native Fishes Recovery 
Planning Team and the National Marine Fisheries Service's (NMFS) 
Central Valley Salmonid Technical Recovery Team, Santa Ynez River 
Technical Advisory Committee, Kings River Technical Steering Committee, 
Mokelumne River Technical Advisory Committee, and San Joaquin River 
Restoration Program Technical Advisory Committee. I served as a member 
of the National Scientific Peer Review Panel for Stanislaus River Water 
Temperature Criteria for Salmonid Restoration. I serve as co-chair of 
the Collaborative Adaptive Management Team (CAMT) Salmon Scoping Team.

    This morning I would like to discuss the inclusion of striped bass 
under the anadromous species doubling goal of the Central Valley 
Project Improvement Act (CVPIA). As introduced, H.R. 4582 would 
eliminate striped bass from the CVPIA's doubling goal. I am not here to 
advocate a position on H.R. 4582, but to provide expert testimony on 
the impact of predation on salmon and steelhead species in the 
Sacramento-San Joaquin Delta.
                        original goals for cvpia

    The CVPIA was enacted in 1992 in an effort to improve the abundance 
of anadromous fish inhabiting the Central Valley rivers and streams 
including the Sacramento and San Joaquin River watersheds and the Bay-
Delta estuary. Anadromous fish are those that spawn in freshwater but 
live a part of their life as juveniles and pre-spawning adults in 
saltwater, including native species such as Chinook salmon and 
steelhead.

    Striped bass were intentionally introduced into the Bay-Delta 
estuary from the East Coast to serve as a recreational and food 
resource for those living in the San Francisco Bay Area. Although they 
are not native to the Central Valley, striped bass were identified as 
one of the anadromous fish species under the CVPIA doubling goal. At 
the time the CVPIA was being developed, striped bass were considered to 
be a key indicator species on the health and condition of the Bay-Delta 
estuary as well as a valued recreational fish species. Part of the 
appeal of striped bass as a recreational species was their large size 
and aggressive predation foraging on smaller fish. Since striped bass 
actively forage on small fish, including shad, smelt, salmon, herring, 
anchovy, and others, they can be readily caught by recreational anglers 
fishing from boats and the shoreline throughout the Bay-Delta estuary 
and rivers.
                  growing concerns for native species

    In the 1990s and later, a shift occurred in the fisheries' 
management priority away from non-native fish to native fish species, 
particularly those that have been listed for protection under the 
Federal Endangered Species Act (ESA) and the California Endangered 
Species Act (CESA). These listed species include winter-run and spring-
run Chinook salmon, Central Valley and Central Coast steelhead, green 
sturgeon, delta and longfin smelt. For purposes of this presentation I 
have focused on Chinook salmon, however, striped bass are known 
predators of all of the listed fish species inhabiting the estuary.

    The Central Valley supports four species of Chinook salmon 
including winter-run (Endangered), spring-run (Threatened), fall-run 
and late fall-run. The name of each species is based on the seasonal 
time of year when the adults migrate upstream into freshwater prior to 
spawning.
                  salmon characteristics and behavior

    Chinook salmon have a life history (Figure 1) in which the adult 
salmon migrate upstream from the ocean into freshwater rivers where 
they dig a shallow depression in gravel deposits, known as a redd, 
where the female deposits her eggs which are then fertilized by a male 
and covered with gravel. Chinook salmon, unlike some of the other 
listed fish, die after spawning. Incubation occurs with the eggs buried 
in the gravel over a period of months depending on factors such as 
water temperatures. After hatching from the egg the young salmon with 
their attached yolk sac remain in the gravel for a period of weeks 
while they grow and develop. As the young salmon develop into 
juveniles, they emerge from the gravels and begin rearing in the rivers 
near where they were hatched. A portion of the juvenile salmon, known 
as fry, may disperse downstream soon after emergence, where they rear 
in the lower reaches of the rivers and estuary. Other juveniles may 
continue to rear in the upper reaches of the rivers for months or up to 
1 year until they are large enough to undergo the physiological 
transformation known as smolting which allows the juveniles (typically 
2 to 4 inches in length) to migrate downstream from freshwater and 
enter coastal marine waters where they continue to grow and develop. 
The juvenile salmon reside in marine waters for a variable period of 
time ranging from approximately 1 to 5 years before returning to the 
freshwater rivers to spawn and complete their lifecycle.

Figure 1: General anadromous salmonid lifecycle.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Central Valley salmon spawn and juveniles rear in the upper 
reaches of larger rivers including the Sacramento, Feather, Yuba, 
American, Mokelumne, Consumes, Stanislaus, Tuolumne, and Merced rivers 
depending on salmon species. The red areas shown on Figure 2 are an 
illustration of the areas of the Central Valley where spring-run 
Chinook salmon spawn and are also primary areas of juvenile rearing. As 
a result of their life history and habitat requirements, all of the 
juvenile spring-run Chinook salmon produced in the Central Valley, in 
this example, migrate downstream in the Sacramento River and through 
the Delta during their passage to the ocean. The juvenile salmon 
downstream migration typically occurs during the late winter and spring 
months. A large portion of the Sacramento River used as the juvenile 
migration route is characterized by a trapezoidal channel with very 
little shallow water, riprap banks with little or no riparian 
vegetation, very little to no in-channel cover or protection from 
predators, with a river channel typically only 500 feet across through 
which all juvenile salmon must migrate.

Figure 2: Spawning areas for spring-run Chinook salmon.


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



           contributing factors impacting salmon survival
    Survival studies have been conducted in both the Sacramento and San 
Joaquin Rivers over a number of years. In the past, survival of 
juvenile salmon was estimated based on the number of marked juveniles 
that were released into the river (juvenile salmon have typically been 
marked using a small metal wire implanted in the fish's nose--a coded 
wire tag) and the number of marked fish subsequently recaptured at a 
downstream location such as Chipps Island. More recently, advances in 
tag technology have led to the development of small battery powered 
tags that emit an underwater sound (acoustic tags) that can then be 
detected as an individual fish passes an acoustic detector. By placing 
acoustic tag detectors in a number of locations and channels in the 
river and Delta, juvenile salmon survival can be estimated. Figure 3 
shows an example of juvenile Chinook salmon survival as the fish 
migrate downstream in the Sacramento River and Delta. In these studies, 
only about 10 percent of the juvenile salmon survived the migration 
down the Sacramento River to the Golden Gate. Results of similar 
survival studies conducted on the lower San Joaquin River and Delta for 
juvenile Chinook salmon (Figure 4) have shown a pattern in which 
survival declined in the early 2000s and has been less than 5 percent 
every year for the past decade.

    A variety of factors have been identified that are thought to 
contribute to the poor survival of juvenile salmon in the Bay-Delta 
estuary including:

    <bullet> Changes in habitat/wetland reclamation/channelization;

    <bullet> Dams and water project operations;

    <bullet> Natural hydrology/water quality (e.g., temperature);

    <bullet> Food web changes;

    <bullet> Invasive non-native species as predators and competitors--
            --

          -- Inadvertently introduced (Asian clam)

          -- Intentionally introduced (striped bass)

    <bullet> Entrainment at unscreened diversions;

    <bullet> Loss of riparian vegetation;

    <bullet> Loss of shallow channel margin habitat and seasonal 
            floodplains;

    <bullet> Reductions in suitable spawning gravels and juvenile 
            rearing habitat;

    <bullet> Ocean conditions; and

    <bullet> Harvest (of some species).

    The relative importance of these and other factors affecting 
habitat quality and availability and survival of native fish interact 
in dynamic ways geographically and in response to within and between-
year biologic and environmental conditions.

Figure 3: Survival estimates for acoustically tagged late fall-run 
        Chinook salmon in the Sacramento River.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
        
        
        
        (Source: Michel 2010)
Figure 4: Estimated survival of Fall-run Juvenile Chinook Salmon from 
        Mossdale (MOS), Durham Ferry (DF), or Dos Reis (DR) to either 
        Jersey Point (JPT; CWT) or Chipps Island (CHP; AT). Intervals 
        are 95 percent confidence intervals, truncated to 0 if 
        necessary.

        
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]        


Source: SJRGA 2013, USFWS 2014

                     threat of non-native predators

    Predation mortality has been identified as an important factor 
effecting juvenile salmon survival in the rivers and Delta. Primary 
predator fish species in the Delta include both striped bass and 
largemouth bass (both introduced species). The geographic and seasonal 
co-occurrence of adult striped bass and juvenile Chinook salmon (Figure 
5) in the Sacramento and San Joaquin Rivers is one of the factors that 
increase bass predation on juvenile salmon. Adult striped bass migrate 
upstream into the rivers during the spring where they stage and forage 
prior to spawning (typically during April-May). During the spring 
months (typically during April-May) a majority of the juvenile Chinook 
salmon migrate downstream through the rivers on their way to the ocean. 
The adult striped bass actively forage on juvenile fish in the size 
range of juvenile Chinook salmon. The adult striped bass and the 
juvenile salmon are both limited to the channelized river approximately 
500 feet wide where the juvenile salmon have little or no cover or 
protection from predators. The result is increased vulnerability of 
juvenile salmon to predation. High levels of juvenile mortality 
contribute to reduced adult salmon abundance.
Figure 5: Co-occurrence of adult striped bass and juvenile Chinook 
        salmon in the Sacramento River during spring.
        
        
  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]      
        
        
        
        subjecting salmon to ambush

    In addition to predation that occurs throughout the rivers and 
Delta, specific locations have been identified where juvenile salmon 
are particularly vulnerable to predators. For example, observations of 
acoustic tags from juvenile salmon released into the San Joaquin River 
showed an unusual accumulation of tags in the vicinity of several 
bridge crossings that were thought to provide structure and ambush 
locations for predatory fish. In other studies, evidence showed 
increased predation mortality of juvenile salmon that were exposed to a 
scour hole in the river channel. High levels of predation on juvenile 
Chinook salmon and steelhead have been observed experimentally within 
Clifton Court Forebay (Figure 6), part of the State Water Project 
diversion facility, where juvenile mortality attributable to predation 
was estimated to be approximately 80 percent.
Figure 6: Clifton Court Forebay: Juvenile salmon and steelhead 
        predation mortality is approximately 80 percent between the 
        radial gate and the Skinner Delta Fish Protective Facility.
        
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]     
        
        
        
       
        
                    is predation a new problem?
    There is no question that adult striped bass prey on juvenile 
Chinook salmon (Figure 7). The question that typically comes up is why 
would striped bass predation on juvenile salmon be a problem now if the 
fish have coexisted in the estuary for over 150 years? As noted above, 
there are a wide variety of factors that affect juvenile salmon 
survival in the rivers and Delta. Predation by striped bass is one of 
those factors. One potential scenario is that as a result of long-term 
degradation of aquatic habitats, in combination with a variety of 
sources of mortality, the Chinook salmon population resilience to 
adverse conditions has been degraded and the populations are now less 
able to withstand added stressors that result in greater mortality and 
further reductions in abundance. A second potential scenario is that 
salmon population resilience has declined as a result of cumulative 
stressors such as poor ocean rearing conditions, reduced river flows 
and increased water temperatures resulting from drought conditions, 
increased predator abundance, and other factors that reduce the ability 
of the population to withstand the incremental contribution of one or 
more stressors such as increased predation mortality. The low levels of 
survival observed for juvenile Chinook salmon migrating through the 
rivers and Delta are a major challenge in generating healthy and robust 
populations of salmon that contribute to ESA recovery and sustainable 
fisheries. Doubling the abundance of striped bass as part of CVPIA 
would be expected to contribute to an increase in the cumulative 
stressors affecting Central Valley Chinook salmon populations and would 
be expected to contribute further to low juvenile survival and reduced 
adult abundance.
Figure 7: Juvenile Chinook salmon preyed upon by an adult striped bass.


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

swp and cvp inflow:export ratio operations and salmon survival

    As part of the overall effort to improve juvenile salmon and 
steelhead survival in the Central Valley and Delta, the National Marine 
Fisheries Service (NMFS) has identified a number of management actions 
related to SWP and CVP export operations. One of those actions specific 
to the lower San Joaquin River is the regulation of export rates as a 
ratio of San Joaquin River flow at Vernalis during April and May. The 
action, which was outlined in the 2009 Biological Opinion, is intended 
to improve survival of juvenile steelhead produced in San Joaquin River 
tributaries. Although steelhead survival studies have been conducted in 
the lower San Joaquin River over the past 6 years, a complete set of 
results from these studies is not yet available for use in assessing a 
potential relationship between the I: E (San Joaquin River inflow: SWP 
and CVP export) ratio and juvenile steelhead survival. Available 
results from lower San Joaquin River juvenile salmon survival studies 
(Figure 4) have shown no improvement in survival (survival has been 
less than 5 percent) during the spring in every year since the mid-
2000s despite variation in river flows, export rates, inflow-export 
ratios, and other environmental variables. Although more rigorous 
statistical analyses of the survival study results are currently 
underway, preliminary results suggest that the consistently low 
survival of juvenile salmon from the San Joaquin River over the past 
decade has occurred despite implementation of management actions 
targeting SWP and CVP export operations outlined in the 2009 Biological 
Opinion.
                cvpia should support species protections
    The CVPIA specifically identifies striped bass as part of the goal 
of doubling abundance of anadromous fish inhabiting the Central Valley 
and Bay-Delta estuary. Policy and management priorities have changed, 
however, since enactment of CVPIA to include:

    <bullet> In the later 1990s priorities shifted in response to the 
            Endangered Species Act to emphasize protection of depressed 
            native fish species;

    <bullet> The Bay-Delta estuary provides spawning and rearing 
            habitat for several ESA protected salmonid species;

    <bullet> Results of juvenile salmon survival studies have shown low 
            survival on both the Sacramento River (typically survival 
            less than 10 percent) and San Joaquin River (typically 
            survival less than 5 percent);

    <bullet> A variety of factors interact to effect habitat conditions 
            and survival of juvenile and adult salmonids including 
            predation mortality;

    <bullet> Striped bass are a predator of juvenile Chinook salmon and 
            other listed fish species;

    <bullet> Predation mortality by striped bass and other non-native 
            fish has been identified as a major stressor;

    <bullet> Research by California Department of Fish and Wildlife, 
            U.S. Fish and Wildlife Services, NMFS, and others on 
            predation is underway; and

    <bullet> Increased striped bass abundance in response to CVPIA 
            goals is expected to increase the risk of predation 
            mortality for juvenile salmon and other protected species 
            and contribute to reduced abundance of native fish species.

                               conclusion
    In conclusion, increasing the population of non-native species that 
prey on protected species is counter-productive to species recovery 
efforts currently underway in the Sacramento-San Joaquin Delta and 
surrounding watershed. Therefore, striped bass, a known predator of 
endangered native species, should be excluded from the doubling goal 
for anadromous species in the CVPIA and initiatives should be 
undertaken to address other stressors impacting these protected species 
to improve their chance of survival.
    Thank you for the opportunity to provide comments on this important 
topic. I would be happy to answer any questions.

                                 ______
                                 

    Dr. Fleming. Yes, thank you, Mr. Hanson.
    The Chair now recognizes Mr. Lowenthal for an introduction.
    Dr. Lowenthal. Thank you, Mr. Chair. I am very pleased to 
introduce today, Jim Herberg. Jim Herberg is the General 
Manager of the Orange County Sanitation District, the OCSD, 
managing a staff of 626 employees and serving 2.5 million 
people, including many in my district.
    Prior to becoming the General Manager, in 2013 Jim was the 
Director of Engineering responsible for OCSD's biosolids 
program, environmental compliance, and source control 
permitting, in addition to managing the planning, design, and 
construction of the agency's $2.6 billion capital improvement 
program.
    Jim has been with the Orange County Sanitation District 
since 1995. Jim is a registered civil engineer in the state of 
California, and is board certified as an environmental engineer 
by the American Academy of Environmental Engineers. He holds a 
bachelor of science degree in civil engineering from the 
University of Oklahoma, and a master's degree in engineering 
from my institution, Long Beach State, where I taught for many 
years.
    Jim, we are happy to have you here today to talk about all 
the leadership role that OCSD has done in water recycling, and 
about how we can do even more in the future.
    Thank you, Mr. Chairman.
    Dr. Fleming. I thank the gentleman. Mr. Herberg, you are 
now recognized for 5 minutes.

   STATEMENT OF JIM HERBERG, GENERAL MANAGER, ORANGE COUNTY 
        SANITATION DISTRICT, FOUNTAIN VALLEY, CALIFORNIA

    Mr. Herberg. Thank you, Mr. Lowenthal, for that 
introduction; and good morning, Chairman Fleming, Ranking 
Member Huffman, and members of the committee. I am Jim Herberg, 
and I appear before you today as the General Manager of the 
Orange County Sanitation District, located in Orange County, 
California. I want to express our appreciation for the 
opportunity to testify on the important need to accelerate the 
way in which we support water recycling.
    I also want to acknowledge our partner agency, the Orange 
County Water District. Orange County Water District's first 
vice president, Dennis Bilodeau, is currently testifying before 
the Senate Committee on the Environment and Public Works on the 
vital role that water recycling and other innovations can play 
in delivering a safe and reliable water supply for the arid 
West.
    It is also important to highlight that a number of other 
organizations, including the California Association of 
Sanitation Agencies, the National Association of Clean Water 
Agencies, the Water Environment Federation, Water Reuse, and 
the Association of California Water Agencies have worked to 
advance water recycling policy. Clearly, this is an issue that 
crosses the divide between water and wastewater.
    The Orange County Sanitation District serves the needs of 
2.5 million citizens in 20 cities. We are the sixth largest 
county in the United States, in terms of population. We believe 
that today's hearing into H.R. 2993 is especially timely 
because of the era of scarce water resources and the need to 
develop new ways to deliver sustainable water supplies.
    As former Department of the Interior Secretary Lujan noted, 
the last great river to tap is wastewater. At Orange County 
Sanitation District, working with Orange County Water District 
and the Federal Government, we are harnessing this resource.
    Our commitment to using wastewater as a resource led us to 
partner with the Orange County Water District and construct the 
internationally acclaimed groundwater replenishment system. 
This would not have been possible without this committee's 
support, and we thank you for that support.
    A little background on the project. In the midst of the 
drought of the late 1980s and early 1990s, facing population 
growth, groundwater depletion, seawater intrusion, and 
uncertain imported water supplies, we looked for an innovative 
solution. This is the groundwater replenishment system.
    We took a valuable but underused resource, wastewater, and 
developed a breakthrough technological approach. Today the 
partnership between the two agencies delivers more than 100 
million gallons of treated water each day, serving the needs of 
850,000 citizens. And with the expansion, we plan to deliver up 
to 130 million gallons a day to more than 1.1 million citizens.
    The system provides multiple benefits--most notably 
reducing our dependence on imported water supplies and 
improving the region's environment through the diversion of 
effluent that would have otherwise been discharged to the 
Pacific Ocean, and producing this highly purified water locally 
requires only one-half of the energy that it would take to move 
water from the Sacramento Delta to Southern California.
    This accomplishment would not have been possible without a 
Federal partner. Congress appropriated $20 million through 
Title XVI. This assistance helped us to reduce the product 
water costs and increase public acceptance. Our project is just 
one of the successes under Title XVI. Title XVI has contributed 
to the development of projects contributing $369,000 acre-feet 
of water per year across the arid West.
    One important lesson we learned was the sustainable water 
projects are not a one-size-fits-all solution. Different 
technologies will be required to address the new challenges 
that were not envisioned in the past. And this lesson is what 
makes us believe that the new approach needs to be implemented 
to fund promising solutions. This would be H.R. 2993.
    H.R. 2993 provides a road map to restructure the 
partnership between the Bureau of Reclamation and local 
agencies like ours. This new approach would ensure that the 
most promising projects are funded. Under the old way of doing 
business, a project undergoes a feasibility study, and the 
study is reviewed to determine if it is feasible. Assuming a 
positive finding, then the project sponsor would seek a 
constructive authorization. Then, if successfully authorized, 
an appropriation from Congress would be sought. This is a 
several-year process with no certainty of success.
    H.R. 2993 recognizes that we are in a changing world and we 
need to accelerate the process, and it is a responsible 
acceleration. If a project is deemed feasible, then the 
Secretary would have the authority to fund construction, 
assuming that Congress appropriated funding for the overall 
Title XVI program. This acceleration is a timely response to 
the new normal of heightened water scarcity. A series of 
criteria are spelled out to ensure that any project funded 
would be grounded in the purpose to support regionalism, 
multiple benefits, public acceptance, and water resource 
flexibility, among other purposes.
    In short, this new competitive approach would ensure that 
the biggest benefit is gained for the dollars provided by the 
Federal Government. An annual report to Congress on the status 
of the program and its implementation would also be useful.
    Again, we hope that the subcommittee and the committee will 
consider the value that H.R. 2993 would deliver to our shared 
interest of drought-proofing the West. I would be pleased to 
respond to any questions and, again, thank you for the 
opportunity to appear before you on this important and timely 
matter.

    [The prepared statement of Mr. Herberg follows:]
  Prepared Statement of Mr. James D. Herberg, P.E., General Manager, 
Orange County Sanitation District, Fountain Valley, California on H.R. 
                                  2993
    Chairman Fleming, Ranking Member Huffman and members of the 
subcommittee, I am Jim Herberg, General Manager of Orange County 
Sanitation District (OCSD). I appear before you today as one half of a 
local partnership that developed and constructed an internationally 
acclaimed sustainable water supply project known as the Groundwater 
Replenishment System or GWRS. Our partner agency, the Orange County 
Water District (OCWD) operates GWRS and I want to acknowledge their 
leadership on this effort. I also want to acknowledge OCWD's First Vice 
President Denis Bilodeau, who is currently testifying before the Senate 
Committee on Environment and Public Works on the vital role that water 
recycling and other innovations can play in providing a sustainable 
water future.
    The Orange County Sanitation District is a public agency located in 
Fountain Valley and Huntington Beach that provides wastewater 
collection, treatment, and recycling for approximately 2.5 million 
people in central and northwest Orange County. OCSD is a special 
district that is governed by a 25 member Board of Directors comprised 
of 20 cities, four special districts, and one representative from the 
Orange County Board of Supervisors. Orange County is the sixth largest 
county by population in America. This distinction is important as it 
drives our priority to find sustainable water supplies for our growing 
region.
    OCSD is pleased to be part of today's hearing to highlight ways in 
which we can develop cost-effective water recycling solutions. Indeed, 
in California, we have taken steps with the help of the Federal 
Government to tap what former Secretary of the Interior Lujan termed 
the last great river, wastewater. Today's hearing is especially timely 
because we are entering an era of water resources needs that demands a 
new way of developing sustainable water supply projects. Similar to the 
digital revolution, the technology revolution in water is changing the 
way we develop projects to meet our municipal, agricultural and 
environmental water demand. OCSD would like to note the efforts to 
advance the Nation's commitment to sustainable water practices through 
the activities and efforts of organizations including the California 
Association of Sanitation Agencies, National Association of Clean Water 
Agencies, Water Environment Federation, Association of California Water 
Agencies, WaterReuse, and its state chapter California WateReuse.
    OCSD has always taken pride in advancing the treatment of 
wastewater through the use of innovative technologies. In fact, it was 
this dedication that led us to a decision to work with our water 
agency, OCWD, to design and construct a sustainable water supply to 
address a growing population and changes in precipitation patterns. 
This commitment is demonstrated vividly by the expansion of the GWRS. 
The GWRS is the world's largest advanced water purification system for 
potable reuse. The project receives OCSD's treated wastewater that 
otherwise would be sent to the Pacific Ocean and purifies it using a 
three-step advanced process. I would like to express our gratitude for 
the committee's past support that helped make GWRS a reality.
    Today, I would like to address how OCSD and its partner OCWD have 
developed a meaningful response to the drought conditions and what 
policies need to be implemented for the future to assure that projects 
can be constructed to address our changing environment. I want to 
emphasize that the past winter's El Nino has only served to validate 
the value of Federal programs and projects that we pursued. El Nino 
brought above average snowpack and almost brimming reservoirs to 
northern California. But in our region, the record rainfall we 
anticipated did not occur. Clearly, the new normal of rainfall and 
snowfall events along with accelerated evaporation and melting means 
that it is incumbent to develop and implement policy approaches to 
advance sustainable water supply. It has often been stated that 
California has always met challenges and succeeded, defying the 
conventional wisdom that our state is too big and the problems are too 
big to find a long-lasting solution. In our circumstance, OCSD and OCWD 
designed a solution and with the vital support of Congress and the U.S. 
Bureau of Reclamation, we constructed GWRS, a project that has won 
international acclaim and helped establish the United States as a 
leader in the field of sustainable water projects. This solution can be 
replicated throughout arid and semi-arid regions of our Nation and the 
world.
    In Orange County, our climate is becoming more arid. The base flow 
of the Santa Ana River, our main source of surface water, continues to 
decline. Imported water supplies from Northern California and Colorado 
River are restricted. We expect droughts to occur 3 out of every 10 
years. Population growth within our region is expected to increase and 
so will water demands. There was and is a need to address these 
multiple matters.
    In the late 1980s, it became apparent that to preserve our region's 
economic and social vitality, the challenges of our groundwater 
depletion, seawater intrusion and unreliable surface water supplies 
demanded an innovative solution. An aggressive program was implemented 
to develop a novel water treatment process with the GWRS.
    Unlike traditional approaches to water treatment, our approach 
recognized that wastewater is a valuable resource. The ability to 
design a technological approach that would capture this resource, 
remove the impurities and recycle it back into the environment would 
address multiple needs ranging from supplementing water supply to 
protecting our natural resources.
    The GWRS takes treated wastewater from OCSD that would otherwise be 
discharged into the Pacific Ocean. It implements a sophisticated 
process to purify this water. The process involves using a three-step 
advanced treatment system consisting of microfiltration, reverse 
osmosis, and ultraviolet light with hydrogen peroxide. This treatment 
and purification process produces high-quality water that exceeds all 
state and Federal drinking water standards. Let me emphasize this 
point. OCWD is able to exceed public health standards in developing a 
sustainable water supply.
    GWRS was achieved through a partnership with Federal and state 
agencies that provided vital assistance in making this project a 
reality. The $20 million in assistance under Title XVI leveraged over 
$70 million in state and local funding to provide for the $481 million 
construction cost of the GWRS. Today, the partnership is responsible 
for delivering enough drinking water for 850,000 people with a 
production of 100 million gallons of water per day. When GWRS became 
operational it was a project that delivered on the promise of providing 
a safe and reliable water supply.
    There is no one-size-fits-all solution to water reuse. The GWRS 
establishes a technology foundation to design and build individual 
approaches to sustainable water supply needs. Water needs of a specific 
community, water sources, public health regulations, costs, and the 
types of water infrastructure in place, such as distribution systems, 
man-made reservoirs or natural groundwater basins, determine if and how 
your reused water becomes part of the drinking water supply. And these 
factors are driving our belief that we need a new approach to funding 
promising water recycling projects.
    As the state of California and the entire West faces severe drought 
conditions, increased attention must ultimately turn to locally 
developed projects and programs like GWRS that provide reliable water 
supplies. But the risks in developing projects require partnerships and 
the Federal Government is a vital partner. The support provided through 
Federal assistance helps to reduce project costs through lower 
borrowing rates and public acceptance.
    Today, the West faces challenges to our urban and rural economies 
that we never envisioned as drought conditions persist with greater 
frequency and extend for longer periods of time.
    The changing hydrological conditions in the West demand a new model 
to spur on innovation that can lead to sustainable water supplies. OCSD 
and OCWD are currently in the process of taking on the challenge of 
finding new ways to develop the last river in the West. We recently 
completed a U.S. Bureau of Reclamation supported feasibility study to 
leverage our wastewater supply by reconfiguring and expanding our 
facilities to reuse nearly 100 percent of the wastewater generated by 
the 2.5 million residents of our service area. This final expansion 
would generate an additional 30 million gallons of water per day for 
groundwater recharge. When added to our current capacity, the total 
will be enough to serve a total population of 1.1 million. We are 
hopeful that the results of this study will position us to move forward 
with construction as our area continues to suffer the worst drought 
conditions since rainfall records have been recorded. I would also like 
to note that water agencies throughout California are currently 
generating approximately 750,000 acre-feet of water through reuse 
operations, and are planning for reuse projects that would more than 
double that total.
    We seek to accelerate the development our project, however, the 
current Title XVI program imposes procedural delays on feasible 
projects at a time when expeditious project approvals would help us 
meet the water scarcity challenges that we face. Therefore, like 
changes in technology that have reformed and restructured the way in 
which we work, we need to reform and restructure the way in which the 
Federal Government supports the clear need for a meaningful partnership 
to develop water supply projects.
    One approach that we believe offers a road map to restructure this 
partnership is the Water Recycling Acceleration Act of 2015 (H.R. 
2993). Under H.R. 2993, the old approach of conducting a feasibility 
study and then requiring project sponsors to secure an authorization 
for a project deemed feasible would be reformed to accelerate 
construction of critical water infrastructure. If a project is deemed 
feasible, it would then be allowed to proceed to actual construction 
with Federal assistance, if selected by the Secretary of the Interior 
assuming Congress approves the budget for such programs.
    Any assistance must be targeted to achieve maximum benefits from 
Federal assistance to reduce the adverse consequences from today's 
water scarcity impacts. H.R. 2993 would facilitate this objective by 
establishing a series of criteria that address the challenges of today 
and thus to allow a project to receive construction assistance.

    These criteria include:

    <bullet> Deliver a reliable water supply

    <bullet> Protect, restore, and enhance ecosystems

    <bullet> Improve water resource flexibility

    <bullet> Regional in nature

    <bullet> Multiple stakeholders

    <bullet> Multiple benefits including groundwater management and 
            water quality improvements

    Each of these criteria would create an approval process through the 
U.S. Bureau of Reclamation's Title XVI program. It would enable project 
sponsors to develop projects that would guarantee multiple benefits to 
the greatest degree possible. The criteria would also ensure that when 
a project is selected to proceed to construction, Congress would be 
assured that the investment of Federal resources would enjoy broad 
support from stakeholders and that the project has regional benefits.
    Again, OCSD deeply appreciates the subcommittee convening today's 
hearing on this important policy issue and specifically H.R. 2993. OCSD 
and our sister agency OCWD look forward to working with you to advance 
H.R. 2993 through the legislative process.

                                 ______
                                 

    Dr. Fleming. Thank you, Mr. Herberg. The Chair now 
recognizes Mr. Iseman for 5 minutes.

 STATEMENT OF TOM ISEMAN, DEPUTY ASSISTANT SECRETARY OF WATER 
  AND SCIENCE, U.S. DEPARTMENT OF THE INTERIOR, WASHINGTON, DC

    Mr. Iseman. Thank you, Chairman Fleming, Ranking Member 
Huffman, and members of the subcommittee. I am Tom Iseman, 
Deputy Assistant Secretary for Water and Science at the 
Department of the Interior. I appreciate the opportunity to 
testify on two of the three bills before the subcommittee 
today: H.R. 2993 and H.R. 4582. I will briefly summarize my 
written statements, which have been submitted for the record.
    H.R. 2993, the Water Recycling Acceleration Act, would 
amend Title XVI of Public Law 102-575, the Reclamation, 
Wastewater, and Groundwater Studying Facilities Act. Under that 
statute, the Bureau of Reclamation works with local partners to 
investigate opportunities for the reuse of municipal, 
industrial, and agricultural water. Reclamation administers 
Title XVI as a competitive grant program incorporated into the 
WaterSMART program. Funding opportunity announcements are 
posted every year, and project sponsors apply for finite 
amounts of planning, design, or construction funding that are 
awarded once appropriations are received.
    Since 1992, Reclamation has provided approximately $637 
million in Federal funding to congressionally authorized Title 
XVI water recycling and reuse projects. This funding has been 
leveraged with non-Federal cost share of over $2.4 billion to 
make available almost 370,000 acre-feet of water in 2015.
    A central requirement of that program is that the applicant 
projects must be authorized for construction funding by 
Congress. H.R. 2993 would remove that requirement by amending 
Title XVI to state that any project for which funding may 
otherwise be made available shall not be required to have been 
previously authorized for such funding.
    The Department believes it is timely to examine program 
eligibility as contemplated by H.R. 2993. A wider base of Title 
XVI applicants could bring more worthy projects into the 
program. Given that no new Title XVI projects have been 
authorized since 2009, it is possible that newer projects can 
enhance the effectiveness of Title XVI in addressing drought, 
reducing dependency on imported water, and making local water 
supplies more reliable.
    That said, it must be noted that Title XVI is an over-
subscribed program, and each year brings many more applicants 
for Reclamation funding than can be accommodated. There are 
presently 53 authorized Title XVI projects, 21 of which are 
active projects that have not yet received their full Federal 
cost share.
    If H.R. 2993 were enacted, it should be made clear to 
project sponsors that competition for limited resources would 
increase, and the dollar value of awards per project may need 
to be revisited.
    H.R. 4582, the Save our Salmon Act, would amend the Central 
Valley Project Improvement Act, or CVPIA, to remove striped 
bass from the fish doubling goal provisions of the CVPIA. While 
the striped bass is an anadromous fish, it is not native to the 
Sacramento San Joaquin Bay Delta, or even to California. 
Implementation of the CVPIA has focused on improving 
populations and habitat for native fish, and the striped bass 
is a predator of native Delta fish species, including Delta 
smelt and various runs of salmon and steelhead.
    Given that the striped bass contributes to mortality for 
listed species and is not native to the Bay Delta or even 
California, the Department does not object to the removal of 
striped bass from the CVPIA's fish doubling goals.
    My written statement contains recommendations for some 
technical modifications to conform the bill to striped bass 
references contained in the CVPIA statute, and better assure 
that the bill's intention is met. The Department would be glad 
to work with the subcommittee and Representative Denham to 
provide more detail on these recommended changes.
    In closing, Reclamation and the Department appreciate the 
interest in reducing threats to the survival of listed fish in 
the Bay Delta. We believe that the CVPIA has been successful in 
promoting the recovery of fish species in the Bay Delta and its 
tributaries. With the changes noted in my written statement, 
the Department would be pleased to support H.R. 4582.
    Again, thank you for the opportunity to appear before the 
subcommittee today. I would be pleased to answer questions at 
the appropriate time.
    [The prepared statement of Mr. Iseman follows:]
Prepared Statement of Tom Iseman, Deputy Assistant Secretary for Water 
              and Science, U.S. Department of the Interior

                         Statement on H.R. 2993

    Chairman Fleming, Ranking Member Huffman and members of the 
subcommittee, I am Tom Iseman, Deputy Assistant Secretary for Water and 
Science at the U.S. Department of the Interior (Department). I am 
pleased to provide the views of the Department on H.R. 2993, the Water 
Recycling Acceleration Act of 2015. With consideration for the points 
described in my statement, the Department supports the goals of H.R. 
2993.
    Title XVI of Public Law 102-575 created the Reclamation Wastewater 
and Groundwater Study and Facilities Act (43 U.S.C. 390h et seq.). That 
statute authorizes the Department, acting through the Bureau of 
Reclamation (Reclamation), to investigate opportunities for the reuse 
of municipal, industrial, and agricultural wastewater, and fund the 
planning, design, and construction of demonstration and permanent 
facilities. The statute has been amended several times, and, in 
general, Title XVI projects are funded at 75 percent or greater local 
funding, with a Federal cost-share of no more than $20 million or 25 
percent of the total project cost. Some projects, including six of the 
original Title XVI projects, have been authorized with a Federal cost 
share that exceeds $20 million. And while Congress provided blanket 
authorization for the funding of feasibility studies and demonstration 
projects under Title XVI, the statute and subsequent amendments 
contemplate that Federal funding for actual project design and 
construction must be individually authorized.
    Today, Reclamation administers Title XVI as a competitive grant 
program incorporated into the WaterSMART Program. Funding opportunity 
announcements (FOAs) are posted every year and project sponsors apply 
for finite amounts of planning, design, or construction funding that 
are awarded once appropriations are received. Eligibility criteria and 
prioritization measures for the award of funding are public and part of 
every FOA, and the total funding request has exceeded the available 
appropriations in every year since 2011. Applicant projects must be 
authorized for construction funding by Congress.
    H.R. 2933 would remove that requirement by amending Title XVI to 
state that any project for which funding ``may otherwise be made 
available'' shall not be required to have been previously authorized by 
law for such funding. The bill also directs that priority for the award 
of funding be given to projects located in areas experiencing drought, 
or having been a designated disaster area between 2014 and 2018. 
Section 2 also provides for criteria to be applied to applicant 
entities.
    The Department believes it is timely to examine expanding program 
eligibility to any projects that are determined to be feasible and 
which compete well under Reclamation's existing prioritization 
criteria. These criteria were submitted for public review in 2010, and 
are consistent with the program's statutory origins in Public Law 102-
575.
    Title XVI is an integral part of the Department's efforts through 
the WaterSMART Program to increase water supply sustainability. Over 
the past 20 years, projects have been developed under the Title XVI 
program that are now contributing an estimated 369,000 acre-feet of 
water annually to address water demands in drought-stricken states like 
California. This has reduced demands on the oversubscribed Colorado 
River and Sacramento-San Joaquin Bay Delta, and proven to be one tool 
in building regional resilience to drought.
    The Department recognizes that a wider base of Title XVI applicants 
potentially brings more merit to the limited pool of projects eligible 
for funding. With no new Title XVI projects having been authorized 
since 2009, it is possible that newer projects can further enhance the 
effectiveness of Title XVI in addressing drought, reducing dependency 
on imported water, and making local water supplies more reliable.
    Having said that, it must be noted that Title XVI is an 
oversubscribed program, and as stated above, each year brings many more 
applicants for Reclamation funding than can be accommodated in this era 
of limited budgets and Federal deficits. There are presently 53 
authorized Title XVI projects, 21 of which are active projects that 
have not yet received their full Federal cost share. If H.R. 2933 were 
to be enacted, it should be made clear to project sponsors that 
competition for limited resources would increase and the dollar value 
of awards per-project may need to be revisited.
    This concludes my written statement. I would be pleased to answer 
questions at the appropriate time.

                         Statement on H.R. 4582

    Chairman Fleming, Ranking Member Huffman and members of the 
subcommittee, I am Tom Iseman, Deputy Assistant Secretary for Water and 
Science at the U.S. Department of the Interior (Department). I am 
pleased to provide the views of the Department on H.R. 4582, the ``Save 
our Salmon Act''. My statement today will detail technical changes that 
should be amended into H.R. 4582 in order to assure that it meets the 
bill's stated intent. The issues addressed by H.R. 4582 are 
significant, and if amended, the Department could support the enactment 
of this bill.
    The Central Valley Project (CVP) is one of the largest and water 
management projects in the United States--extending from the Cascade 
Range in northern California to the semi-arid but fertile plains along 
the Kern River in the south. Initial features of the project were built 
primarily to protect the Central Valley from water shortages and 
floods, but the CVP also improves Sacramento River navigation, supplies 
municipal and industrial water, generates electricity, conserves fish 
and wildlife, and creates opportunities for recreation. The CVP serves 
farms, homes, and industry in California's Central Valley as well as 
major urban centers in the San Francisco Bay Area; it is also the 
primary source of water for much of California's wetlands.
    In October 1992, President George H.W. Bush signed Public Law 102-
575, which included Title 34, the Central Valley Project Improvement 
Act (CVPIA). The CVPIA amends the previous authorizations of the CVP to 
include fish and wildlife protection and mitigation as project purposes 
having equal priority with irrigation and domestic uses, and makes fish 
and wildlife enhancement a project purpose equal to power generation.
    Section 3406 of the CVPIA directs the Department to implement a 
``fish doubling goal'' for anadromous fish, and this provision is 
addressed by H.R. 4582. Anadromous fish are defined in Section 3403(a) 
as those stocks of salmon, steelhead, striped bass, sturgeon, and 
American shad that ascend the Sacramento and San Joaquin rivers and the 
Sacramento-San Joaquin Delta to reproduce after maturing in San 
Francisco Bay or the Pacific Ocean. The statute directs that the 
Department ``implement a program which makes all reasonable efforts to 
ensure that, by the year 2002, natural production of anadromous fish in 
Central Valley rivers and streams will be sustainable, on a long-term 
basis, at levels not less than twice the average levels attained during 
the period of 1967-1991[.]'' An Anadromous Fish Restoration Program and 
associated Restoration Plan guides the implementation of the CVPIA's 
fish doubling goal.
    Implementation of the CVPIA by Federal agencies and their non-
Federal partners has focused on improving populations and habitat for 
native fish, which are key to a healthy ecosystem. While the striped 
bass is an anadromous fish, it is not native to the Sacramento-San 
Joaquin Bay Delta,\1\ and it is actually a predator of native Delta 
fish species, including Delta smelt (threatened under the Endangered 
Species Act, or ESA) and various runs of salmon and steelhead. As has 
been noted in the U.S. Fish and Wildlife Service's biological opinion 
for the operation of the CVP, striped bass are likely the primary 
predator of juvenile and adult delta smelt given their spatial overlap 
in pelagic habitats.\2\ The National Marine Fisheries Service (NMFS) 
has also noted that striped bass show a strong preference for juvenile 
salmon in their studies.\3\ In testimony before this subcommittee on 
February 10, 2016, NMFS detailed the impacts of predation on Pacific 
coast salmon, including ESA-listed salmon in the Bay-Delta. And a wide 
body of evidence from the California Department of Fish and Wildlife 
shows similar findings that point to striped bass as a stressor on fish 
species that are threatened or endangered under the ESA.
---------------------------------------------------------------------------
    \1\ www.wildlife.ca.gov/Fishing/Inland/Striped-Bass#35540374-
history.
    \2\ Page 183 and throughout, U.S. FWS Biological Opinion for the 
Proposed Coordinated Operation of the Central Valley Project and State 
Water Project. 2008. www.fws.gov/sfbaydelta/documents/SWP-
CVP_OPs_BO_12-15_final_OCR.pdf.
    \3\ Page 147 and throughout, National Marine Fisheries Service 
Biological Opinion for Proposed Long Term Operations of the Central 
Valley Project and State Water Project. 2009. 
www.westcoast.fisheries.noaa.gov / publications / Central_Valley / 
Water %20Operations /Operations, %20Criteria %20and %20Plan/
nmfs_biological_and_conference_opinion_on_the_long-
term_operations_of_the_cvp_and_swp.pdf.
---------------------------------------------------------------------------
    In consideration of the striped bass's function as a fish that 
contributes to mortality for listed species and is not native to the 
Bay-Delta or even California, the Department has no concern with the 
removal of striped bass from the CVPIA's fish doubling goals.
    However, in order to address the intent of the proposed 
legislation, there are some technical modifications that are necessary. 
First, the introduced wording of H.R. 4582 requires changes to conform 
to the enacted language of the CVPIA. For example, the bill only amends 
Section 3406(b)(1) of CVPIA, and makes no change to other relevant 
subparagraphs such as Sections 3406(b)(18), (19), and (21), which also 
provide for taking actions to protect and assist ``anadromous'' fish. 
Section 3406(b)(18) states that, if requested by the state of 
California, the Bureau of Reclamation will assist in management 
measures to restore the striped bass fishery of the Bay-Delta estuary 
and its tributaries. While no agency has requested that Reclamation 
perform this action, a change to this subsection would seem to be 
intended by the language of H.R. 4582.
    In addition, Section 3406(b)(19) requires re-evaluation of 
operational criteria at the CVP's Sacramento and Trinity River 
Reservoirs to protect and restore the anadromous fish in accordance 
with the requirements of 3406(b). Section 3405(b)(21) requires 
Reclamation to assist the state of California in efforts to develop and 
implement measures to avoid losses of juvenile anadromous fish 
resulting from unscreened or inadequately screened diversions. The 
language in H.R. 4582 adding the ``except striped bass'' language to 
the fish doubling goal does not impact these other provisions, thereby 
creating an internal conflict in the language of the CVPIA and in the 
responsibilities of Reclamation toward all anadromous fish. In order to 
fulfill the legislative intent, the bill should be modified to address 
these potential conflicts. The Department would be glad to work with 
the committee to provide more detail on these recommended changes.
    In closing, Reclamation and the Department appreciate the interest 
in reducing threats to the survival of listed fish in the Bay Delta. We 
believe that the CVPIA provides a useful framework for promoting the 
recovery of fish species in the Bay Delta, and its tributaries, and 
with the changes noted above, the Department would be pleased to 
support the CVPIA amendment provided by H.R. 4582.
    This concludes my written statement. I would be pleased to answer 
questions at the appropriate time.

                                 ______
                                 

    Dr. Fleming. Thank you, Mr. Iseman.
    Mr. Downen, you are recognized.

  STATEMENT OF BO DOWNEN, SENIOR POLICY ANALYST, PUBLIC POWER 
                   COUNCIL, PORTLAND, OREGON

    Mr. Downen. Good morning, Chairman Fleming, Ranking Member 
Huffman, and members of the subcommittee. Thank you for the 
opportunity to testify today on H.R. 1869, the Environmental 
Compliance Cost Transparency Act of 2015.
    I am here today representing consumer-owned utilities of 
the Pacific Northwest with statutory first rights known as 
preference rights to purchase power that is generated by the 
Federal Columbia River Power System and marketed by the 
Bonneville Power Administration.
    These preference rights were granted to publicly- and 
cooperatively-owned utilities because they have a mandate to 
pass the benefits of the system through to the citizens of the 
Northwest, the consumers who are their owners, and as consumer-
owners are responsible for the costs of BPA power, not the 
American taxpayer.
    These utilities, being both some of the largest and 
smallest in the Northwest, serve approximately 40 percent of 
electricity consumers in the region. And these utilities are 
committed to preserving the value of the Columbia River System 
for clean, renewable hydropower, and for the system's multiple 
other uses.
    We appreciate the initiative of Representatives Gosar and 
Newhouse in proposing this bill as the consumer-owned utilities 
of the Northwest have a long history of support for fish and 
wildlife mitigation for the dams of the Columbia River system, 
and we believe this legislation would result in the production 
of useful information that would offer greater understanding of 
that mitigation.
    The fish and wildlife costs associated with the rates BPA 
charges for wholesale power are approaching $1 billion 
annually. At $757 million last year, this single category of 
costs accounted for about 30 percent of the power costs charged 
in BPA rates. While customers in the Northwest often ask about 
the nature of the costs that make up their electricity rates, 
some have little to no knowledge about the level of fish and 
wildlife costs affecting these rates.
    Local control over management of the utility is a 
fundamental priority of each consumer-owned utility in the 
Northwest, and this bill offers the opportunity for ratepayers 
to be better informed managers and consumers. While this bill 
is narrowly tailored to require that power marketing 
administrations display costs related to compliance with 
Federal environmental laws impacting fish and wildlife 
conservation on the monthly wholesale power bill sent to 
utilities, it is then up to the local utility to decide what to 
do with that information.
    Support for this bill should not depend on whether or not 
you believe these expenditures in the name of fish and wildlife 
should be lower, higher, or just about right. The issue here 
really is information. More knowledge about fish and wildlife 
costs is not an impetus to do less for fish and wildlife. 
Rather, it is an opportunity to create ownership in the efforts 
currently underway, and serves as an inducement to create 
better, more effective means of assisting fish and wildlife in 
the future.
    Highlighting the costs on power bills could lead to more 
scrutiny over the effectiveness of fish and wildlife mitigation 
measures. But that is a good thing. Better information yields 
greater understanding, and the resulting information discussion 
would improve the processes in place where programmatic 
decisions related to fish and wildlife are made. That would 
benefit fish and wildlife, as well as ratepayers, by ensuring 
the greatest impact for the funds being spent.
    There may be a question of why fish and wildlife costs are 
of specific interest. Well, there are very few, if any, costs 
in BPA's power rates that are both of this magnitude and this 
level of volatility. In addition, these costs are particularly 
driven by Federal laws that do not directly relate to the 
business of producing power. This distinguishes them from many 
of the cost categories that flow into the rates of power 
marketing administrations.
    H.R. 1869 is a straightforward approach to providing more 
information and accountability regarding a major factor in the 
power rates of consumer-owned utilities. Timely release of 
useful information is a worthy goal, in and of itself. Just as 
important is the potential that this information may create 
incentives for better management of our natural resources that 
could benefit fish and wildlife and ratepayers alike.
    Thank you for this opportunity to testify today, and I look 
forward to working with you on this matter and addressing any 
questions.
    [The prepared statement of Mr. Downen follows:]
 Prepared Statement of Christopher (Bo) Downen, Senior Policy Analyst, 
                   Public Power Council on H.R. 1869
                              introduction
    Good morning Chairman Fleming, Ranking Member Huffman, and members 
of the subcommittee. My name is Bo Downen. I am a Senior Policy Analyst 
of the Public Power Council. Thank you for the opportunity to testify 
today on H.R. 1869, The Environmental Compliance Cost Transparency Act 
of 2015.
    The Public Power Council is a trade association representing the 
consumer-owned electric utilities of the Pacific Northwest with 
statutory first rights (known as ``preference'') to purchase power that 
is generated by the Federal Columbia River Power System and marketed by 
the Bonneville Power Administration (BPA). These preference rights were 
granted to publicly and cooperatively owned utilities because they have 
a mandate to pass the benefits through to the citizens of the 
Northwest, the consumers who are their owners. Our member utilities 
have service territories in portions of seven western states and serve 
approximately 40 percent of the electricity consumers in the region.
    These utilities, being both some of the largest and the smallest in 
the Northwest, are committed to preserving the value of the Columbia 
River system for clean, renewable hydropower and for the system's 
multiple other uses. Customers pay for all of the power costs incurred 
by BPA; the agency is a pass-through entity of its costs and 
obligations. Because the utility members of PPC are owned by and answer 
directly to their customers, they are very sensitive to the rates they 
pay for wholesale power and transmission of electricity.
    We appreciate the initiative of Representatives Gosar and Newhouse 
in raising this issue, and for proposing this legislation. H.R. 1869 is 
narrowly tailored to require the power marketing administrations to 
display costs related to compliance with Federal environmental laws 
impacting fish and wildlife conservation on the monthly wholesale power 
bill sent to utilities. Local utilities can then decide what to do with 
that information.
    Local control over management of the utility is a fundamental 
priority of each consumer-owned utility in the Northwest, and this bill 
offers the opportunity for ratepayers to be better informed consumers. 
Our members provide retail electricity service to millions of citizens 
throughout the Northwest, including Washington, Oregon, Idaho, and 
parts of Montana, California, Nevada, and Wyoming. While these 
consumers often ask about the nature of the costs that make up their 
electricity rates, some have little knowledge about the level of fish 
and wildlife costs affecting those rates.
                        fish and wildlife costs
    In the case of BPA, the fish and wildlife costs in the rates the 
agency charges for wholesale power are inordinately large. At $757 
million last year alone, this single category of costs accounted for 
about 30 percent of the BPA power costs charged in rates. The total BPA 
ratepayer cost for fish and wildlife since 1980 is more than $15 
billion. That does not count the amounts contributed through other 
Federal, state, and local entities.
    The latest assumption for fish and wildlife annual costs in the BPA 
power rates for the period that started on October 1, 2015 is likely to 
include $736 million annually, broken down as follows:

    <bullet> $271 million for direct expenditures under the Integrated 
            Program;

    <bullet> $6 million for internal costs of the Northwest Power and 
            Conservation Council related to fish and wildlife;

    <bullet> $33 million for the U.S. Fish and Wildlife Service;

    <bullet> $49 million for the U.S. Army Corps of Engineers;

    <bullet> $6 million for the Bureau of Reclamation;

    <bullet> $200 million of indirect operational costs; and

    <bullet> $171 million in capital investments.

    The efficiency and effectiveness of some of the specific projects 
and methods for salmon recovery are questions with which the region has 
struggled significantly over the last two decades as the underlying 
science continues to develop. Certainly, highlighting the costs on 
power bills could lead to more scrutiny over the effectiveness of 
salmon mitigation measures. If it does, then that would be a useful 
byproduct of H.R. 1869 that would benefit fish and wildlife as well as 
ratepayers. In the meantime, the Federal agencies overseeing salmon 
recovery efforts, along with most of the states and tribes in the 
region, have collaborated in support of a scientifically sound plan 
(``biological opinion'') under the Endangered Species Act. This 
biological opinion commits to an enormous sustained effort for the 
region's salmon and steelhead.
    More knowledge about fish and wildlife costs is not an impetus to 
do less for fish and wildlife. Rather, it creates ownership in the 
efforts underway and serves as an inducement to create better, more 
effective means of assisting fish and wildlife in the future.
                     providing valuable information
    Support for this bill should not depend upon whether you believe 
these expenditures in the name of fish and wildlife should be lower, 
higher, or are just about right. The issue here is information. 
Certainly, it would make the understanding of these costs clearer if 
they were displayed directly on the power bill each month. What happens 
to the information after that, or to the opinions of consumers 
receiving that information, will vary greatly from utility to utility 
and from customer to customer.
    Some may argue that a utility and its ratepayers could gain this 
information without this bill. This is not necessarily the case. In the 
case of BPA, only the agency itself is in the best position to 
determine with accuracy the costs it expends on fish and wildlife. The 
processes in place to determine those costs and inform customers about 
them are lengthy and complex. Utilities would benefit from having one 
official estimate that is produced by the agency and disclosed on the 
actual power bill.
    Some might question why only fish and wildlife related costs should 
be displayed on the bill. There are very few costs in BPA's power rates 
that are of this magnitude and this level of volatility. In addition, 
these costs are particularly driven by Federal laws that do not 
directly relate to the business of producing power. This distinguishes 
them from many of the cost categories that flow into the rates of power 
marketing administrations. Existing accounting systems would allow the 
agency to produce the amount of fish and wildlife costs with little 
additional administrative burden.
  defining costs related to compliance with federal environmental law
    Under H.R. 1869, some may argue about whether the number that a 
power marketing administration displays is the correct reflection of 
fish and wildlife costs. Those arguments are inevitable, and there are 
plenty of venues in the region for all of us to voice our concerns to 
the agency. That discussion, however, should not inhibit the agency 
from making a final determination and getting that information to 
customers.
    H.R. 1869 correctly includes the indirect costs as well as the 
direct costs of compliance with Federal environmental laws. To a 
ratepayer they are one and the same. Water spilled over a dam rather 
than creating electricity impacts ratepayers just as much as direct 
projects, capital costs, or operations and maintenance. Whether the 
action causes a loss of generation or whether it is a direct 
expenditure, the impact is pressure on rates to be higher than they 
otherwise would be.
                               conclusion
    H.R. 1869 is a straightforward approach to providing more 
information and accountability regarding a major factor in the power 
rates of consumer-owned utilities. Timely release of useful information 
is a worthy goal in and of itself. Just as important is the potential 
that this information may create incentives for better management of 
our natural resources that could benefit fish and wildlife and 
ratepayers alike. Thank you for this opportunity to testify today. I 
look forward to working with you on this matter and addressing any 
questions.

                                 ______
                                 

    Dr. Fleming. Thank you, Mr. Downen. The Chair now 
recognizes Dr. Gosar to introduce our final witness.
    Dr. Gosar. Thank you, Mr. Chairman. It is my pleasure to 
introduce Mr. Patrick Ledger, the Senior Vice President and 
Chief Executive Officer of Arizona's G&T Cooperatives.
    Patrick Ledger oversees 250 employees and $200 million in 
annual revenues. He is also the Executive Manager for three 
associated electric generation cooperatives. Patrick received 
his law and master's degree from the University of Arizona. He 
has served on multiple boards and has presented at professional 
conferences throughout the country.
    As a corporate counsel and then the CEO of multiple 
cooperatives, Patrick has a wealth of experience and can 
provide a unique perspective on both regulatory and technical 
challenges.
    Throughout his career, Patrick has improved management 
structures, reduced base rates, and streamlined efficiencies. 
It is an absolute pleasure to have his testimony here before 
this committee, and I yield the floor to Mr. Patrick Ledger.

STATEMENT OF PATRICK F. LEDGER, CEO, ARIZONA G&T COOPERATIVES, 
                        BENSON, ARIZONA

    Mr. Ledger. Thank you very much, Vice Chairman Gosar, Mr. 
Chairman, Mr. Ranking Member Huffman. On behalf of Arizona 
Electric Power Cooperative, I am appearing today to discuss 
H.R. 1869, the Environmental Compliance Cost Transparency Act 
of 2015. I have provided a written statement, as well, that 
will be submitted into the record.
    As the Chief Executive Officer and a customer of the 
Western Area Power Administration, which is what we call 
Western--we are both a hydropower customer and a transmission 
customer of Western--I am supportive of the objectives of the 
legislation and encourage its passage.
    Arizona Electric Power Cooperative is a not-for-profit 
wholesale power and transmission provider for six Class A 
cooperative members, with service territories in Arizona, 
California, and New Mexico. We provide transmission and energy 
services to multiple cities and districts around Arizona, as 
well.
    Based in Benson, Arizona, we own and operate a 605 megawatt 
power plant. We operate over 600 miles of transmission. We 
schedule over 1,000 megawatts of energy throughout the state. 
We are also a power and transmission customer of Western.
    In recent years, Arizona electric power, like much of the 
electric utility industry, has faced some serious challenges, 
particularly on the regulatory front with ever-widening 
compliance requirements to increasingly strident environmental 
regulations. We face the difficult task of managing mounting 
cost impacts resulting from these challenges, while continuing 
to ensure that our customers have a reliable and affordable 
electric power supply.
    Unlike investor-owned utilities, every cost impact on real 
cooperatives or public power utilities is passed on directly to 
our customers, residents of rural parts of Arizona who are 
already struggling. Our responsibility, therefore, is to do 
everything in our power to manage these risks and costs. 
Arizona Electric Power has generally succeeded in managing 
external threats and controlling costs with one recent 
exception: our relationship with the Western Area Power 
Administration.
    We have a long history with Western, stretching back more 
than 50 years. More than just a long-standing partner, they are 
intertwined in our business model, because historically we 
could rely on them, just as many other cooperatives and public 
power utilities do to help us manage risks and keep costs down.
    Today, however, we can no longer rely on them in the ways 
we once did. They have become one of our more significant 
risks. In recent years, we have seen rates for power and 
transmission services charged by Western increase with little 
correlation to market fundamentals. Unlike a traditional power 
supply counter-party that relies on the same market 
fundamentals that we can observe, we do not have the insight 
into their fundamentals that underlie the Western operations.
    For example, we cannot adopt a hedging or trading strategy 
to compensate for Western price increases. Our best option to 
address Western price increases is to anticipate when and how 
prices will increase, and plan our internal strategies 
accordingly. This approach, however, is limited by the 
information that Western provides in support of its rates. We 
do not have details on certain trends, such as the need for 
staffing increases at headquarters or adjustments in the use of 
budget authority. Moreover, we also do not have a sense of how 
operational changes within Western's sister generating agencies 
are affecting power supply and associated pricing.
    While many of the dedicated personnel at Western are 
willing to share anecdotal information on how environmental 
compliance affects hydro-generation, the precise cost breakdown 
is missing from the public domain. H.R. 1869 would help address 
this information gap by requiring the disclosure of compliance 
costs with Federal environmental laws impacting the 
conservation of fish and wildlife.
    In this context, we believe it is important to gather and 
disclose both direct and indirect costs. Moreover, because the 
legislation will require a line item in each monthly billing, 
customers, including APCO, would have a better understanding of 
the true cost of the resources they are buying.
    My fundamental concern with Western in recent years has 
revolved around transparency and understanding the basis for 
rate increases that I must pass along to my members and 
eventually to their customers. Western faces many of the same 
compliance costs that my organization has to shoulder, but it 
is not always clear to me or other Western customers how these 
costs are calculated. A paragraph or two in the Federal 
Register notice does not always reveal the same impact that a 
line item in a bill would convey. Indeed, the proposed 
legislation would provide valuable insight into an important 
cost driver that has affected Western's power marketing in 
recent years, and Arizona Electric Power encourages its 
passage.
    This concludes my testimony.
    I thank the subcommittee for the opportunity to appear 
today, and I am happy to answer any questions that Members may 
have.
    [The prepared statement of Mr. Ledger follows:]
Prepared Statement of Patrick Ledger, Chief Executive Officer, Arizona 
                Electric Power Cooperative on H.R. 1869
    Mr. Chairman and Mr. Ranking Member, on behalf of Arizona Electric 
Power Cooperative, I am appearing today to discuss H.R. 1869, the 
Environmental Compliance Cost Transparency Act of 2015. As the Chief 
Executive Officer of a customer of the Western Area Power 
Administration's (``Western'') marketing area, I am supportive of the 
objectives of the legislation and encourage its passage.
    Arizona Electric Power Cooperative (``AEPCO'') is a not-for-profit 
wholesale power and transmission provider for six Class A cooperative 
members with service territories in Arizona, California, and New 
Mexico. Based in Benson, Arizona, we own and operate a 605 MW power 
plant and over 620 miles of transmission lines. We are also a power and 
transmission customer of Western.
    Over the course of a year, we purchase about $2.4 million in energy 
from Western that is generated at Bureau of Reclamation (``Bureau'') 
projects. To serve our distribution members and wheel the power 
supplied by the Bureau projects, we also buy transmission service from 
Western. Over the course of a year, we pay Western about $5.5 million 
for transmission services. They are a significant partner in our 
operations.
    In recent years, AEPCO, like much of the electric utility industry, 
has faced serious challenges, particularly on the regulatory front, 
from ever widening compliance requirements, to increasingly strident 
environmental regulations. We face the difficult task of managing 
mounting cost impacts resulting from these challenges while continuing 
to ensure that our customers have a reliable and affordable electric 
power supply.
    Unlike investor-owned utilities, every cost impact on rural 
cooperatives or public power utilities is passed-on directly to our 
customers--residents of rural areas who are already struggling. Our 
responsibility, therefore, is to do everything in our power to manage 
these risks and costs. When, several years ago, the railroads doubled 
our fuel transportation costs, we fought them at the Surface 
Transportation Board and won. When the EPA unexpectedly imposed a 
Federal implementation plan on Regional Haze that would have forced us 
into bankruptcy, we developed an alternative that was $180 M less 
costly and produced better results. And, when new compliance 
responsibilities required significant operational changes, rather than 
adding new full time employees, we shifted staff and found a way to 
make those changes cost neutral.
    AEPCO has generally succeeded in managing these external threats 
and controlling costs, with one recent exception. We have had a 
relationship with one power and transmission supplier that goes back 
more than 50 years. More than just an important partner, this supplier 
is intertwined in our business model because historically we could rely 
on them, just as many other cooperatives and public power utilities do, 
to help us manage risk and keep costs down. Today, however, we can no 
longer rely on this supplier in the ways we once did, rather they have 
become one of our more significant risks. This power and transmission 
supplier is the Western Area Power Administration. In recent years, we 
have seen rates for power and transmission services charged by Western 
increase with little correlation to market fundamentals. Western is a 
one of its kind power supplier in the West. Its statutory mission is to 
market and deliver power to customers in Western's marketing area from 
a broad fleet of largely paid for hydropower projects.
    Yet, today, Western customers, including AEPCO, face any number of 
challenges in addressing costs. Unlike a traditional power supply 
counterparty that relies on the same market fundamentals that we can 
observe, we do not have the insight into the fundamentals that underlie 
Western's operations. For example, we cannot adopt hedging or trading 
strategies to compensate for Western price increases. Our best option 
to address Western price increases is to anticipate when and how prices 
will increase and plan our internal strategies accordingly.
    This approach, however, is limited by the information that Western 
provides in support of its rates. We do not have details on certain 
trends such as staffing increases at headquarters or adjustments in the 
use of budget authority. Moreover, we also do not have a sense of how 
operational changes with Western's sister generating agencies are 
affecting power supply and associated pricing. While many of the 
dedicated personnel at Western are willing to share anecdotal 
information on how environmental compliance affects hydropower 
generation, the precise cost break down is missing from the public 
domain.
    H.R. 1869 would help address this informational gap by requiring 
the disclosure of compliance costs with Federal environmental laws 
impacting the conservation of fish and wildlife. In this context we 
believe it is important to gather and disclose both direct and indirect 
costs. Moreover, because the legislation would require a line item in 
each monthly billing, customers including AEPCO would have a better 
understanding of the true cost of the resource that they are buying.
    My fundamental concern with Western in recent years has revolved 
around transparency and understanding the basis for rate increases that 
I must pass along to my members and eventually their customers. Western 
faces many of the same compliance costs that my organization has to 
shoulder but it is not always clear to me or other Western customers 
how those costs are calculated. A paragraph or two in a Federal 
Register notice does not always reveal the same impact that a line item 
in a bill will convey. Indeed, the proposed legislation would provide 
valuable insight into an important cost driver that has affected 
Western's power marketing in recent years.
    Before concluding my testimony today, I should note that in the 
last few months Western's focus does appear to have shifted toward 
greater transparency. They have, for example, developed a page on their 
Web site called ``The Source.'' While it is a work in progress, it may 
show promise in providing some of the information that we have long 
been requesting. Western has also indicated that they are assembling 
background cost information and some of the underlying data that have 
driven rate increases in recent years. These are positive developments 
that may help us understand some of the fundamentals driving the rate 
increases. The passage of H.R. 1869 would provide another important 
tool in helping us manage costs for our customers and we would 
encourage its passage.

                                 ______
                                 

    Dr. Fleming. OK. Thank you, Mr. Ledger. And we thank you, 
panel, for your valuable testimony today. At this point we will 
begin our questions of our witnesses. To allow all Members time 
to participate, we will limit questions to 5 minutes.
    If we have further questions we may do a second round, just 
depending on the time and amount of questions and interest. I 
now recognize myself for 5 minutes.
    Mr. Iseman and Mr. Hanson, the subcommittee heard a few 
months ago that non-native striped bass predation has a 
substantial direct impact on native species like salmon and 
Delta smelt. In some parts of California, up to 97 percent of 
ESA-protected juvenile salmon were consumed by striped bass. 
Yet we have a Federal law that has a goal of doubling these 
non-native predators in California. Do you believe that 
increasing the population of non-native species that prey on 
endangered species is counterproductive to recovering that 
species? Mr. Iseman and Dr. Hanson?
    Mr. Iseman. Yes. In this case, as we testified, we agree 
that the striped bass is causing predation on endangered 
species, and we think it is appropriate to remove them from the 
fish doubling goals in the CVPIA.
    Dr. Fleming. OK. Dr. Hanson?
    Dr. Hanson. And I agree with that position. But just to be 
clear, you cite some numbers with regard to incremental 
survival, or mortality. And it is difficult. Those mortality 
rates vary substantially from year to year, so it is very 
difficult to attribute a certain mortality rate to striped bass 
predation. We know that they are a predator, we know that they 
consume juvenile Chinook salmon. They are an incremental stress 
on the population, as a whole. And, therefore, I agree that 
doubling the abundance of striped bass would be 
counterproductive to recovery of ESA-listed species.
    Dr. Fleming. OK. Does this bill help reverse the counter-
productivity at the Federal level?
    Dr. Hanson. This bill would remove the incentive to achieve 
a doubling goal. And, therefore, I think it would shift the 
priorities within the CVPIA with regard to allocation of 
resources and the types of resources that get allocated to 
improving fishery habitat and other conditions.
    Dr. Fleming. OK. Mr. Iseman?
    Mr. Iseman. Currently, our priorities do focus on trying to 
restore the native fish species, and that is where we are 
investing our resources. As I said, I think it makes sense to 
remove the striped bass from the doubling goals. But I don't 
think it will significantly change the way that we are 
investing in recovery activities in support of the CVPIA.
    Dr. Fleming. OK. Again, back to Mr. Iseman. The Central 
Valley Project Improvement Act, which has a fish doubling goal 
for both non-native striped bass and native ESA-listed salmon, 
has perpetuated one stressor to salmon and smelt. This bill 
proposes one change to that Act. You suggest making additional 
changes to that Act.
    You testified in support of the intent of the bill, but 
would the Administration support that bill if we made the 
additional changes to that 1992 law that you suggested?
    Mr. Iseman. I believe the only change that we suggested was 
to agree with the legislation, which would remove striped bass 
from the doubling goals in the CVPIA. If you wanted to engage 
in a discussion on broader amendments or changes to the CVPIA, 
we would be willing to have that discussion. We would need to 
involve our departmental leadership, certainly, including 
Deputy Secretary Connor and Commissioner Lopez, as well as 
other parts of the Department. And I think it is appropriate 
that that conversation would need to include many other 
stakeholders, as well.
    Dr. Fleming. OK, thank you. The Chair now recognizes Mr. 
Huffman for questions.
    Mr. Huffman. Thank you, Mr. Chairman. So we are here 
talking about a 26-year-old goal that was in the Central Valley 
Project Improvement Act signed by President Bush in 1992 that 
refers to doubling of all anadromous fish. And by the fact that 
it did not exclude striped bass, that included the striped 
bass.
    And Dr. Hanson, it is good to see you again.
    Dr. Hanson. Nice to see you, as well.
    Mr. Huffman. I think I agree with the premise of your 
testimony, which is that if we have these very low salmon 
populations, and we are trying to increase striped bass 
populations, knowing that it is one of many stressors, the 
predation issue, that that does not make any sense.
    Dr. Hanson. Correct.
    Mr. Huffman. But we are having that discussion as if that 
is happening. The working premise of this discussion is that we 
are actually trying to increase striped bass population, when, 
in fact, since the passage of that law in 1992, we have never 
done a single thing to try to increase striped bass population.
    Now, I am happy to have a witness correct me on that, but I 
know that the law originally called for the development of a 
fish-doubling plan that never happened. I know that still on 
the books we have this standard that says we have a goal of 
doubling all anadromous fish. Yet, I am not aware of a single 
thing the Department of the Interior or any other Federal 
agency has ever done in a program or even a single activity to 
increase striped bass population.
    So, let me start with you, Mr. Iseman. Can you correct me 
if I am wrong about that?
    Mr. Iseman. I cannot correct you. I agree with the point, 
certainly, that recently our activities have focused on 
enhancing native fish populations, and that some of those may 
have incidental benefits for striped bass. But that certainly 
has not been our focus or our intention--investing in striped 
bass doubling.
    Mr. Huffman. Dr. Hanson, did I miss something? Are there 
Federal programs or activities underway right now that are 
focused on increasing striped bass population?
    Dr. Hanson. There are a couple of activities that have been 
implemented. There are certainly regulations that have been 
imposed on recreational harvest of striped bass, in part 
intended to protect the population. And specifically----
    Mr. Huffman. Those would be state----
    Dr. Hanson. Those are state regulations.
    Mr. Huffman. Right. So this is not----
    Dr. Hanson. Not at a Federal level.
    Mr. Huffman [continuing]. Federal activity or program, as I 
believe to be the case. So----
    Dr. Hanson. I think that is true.
    Mr. Huffman [continuing]. It is really an interesting 
discussion, but it is also an enormous strawman, because we are 
not doing anything to increase striped bass. So, my friend, Mr. 
Gosar, if this makes your top 10 list of government dysfunction 
outrage, it is a pretty hollow list, because there is nothing 
going on. And as much as I am glad to be talking about salmon 
here in this subcommittee, it would be great if we could focus 
on real threats to salmon, instead of fictional ones like 
increasing striped bass population when, in fact, there is 
nothing like that happening.
    I want to turn, Mr. Iseman, to the issue of Title XVI. And 
actually, let me start with Mr. Herberg. Thanks for joining us 
from Orange County. I am a big fan of the recycling and advance 
water treatment work you have done there. You mentioned 21 
active authorized projects that are waiting for their Federal 
cost share. Do you have any approximation of how much water 
could be generated if we would step in and provide that cost 
share?
    Mr. Herberg. For those 21 projects? I think that might be a 
better question for Mr. Iseman.
    Mr. Huffman. I am happy to direct it to Mr. Iseman, so 
thanks.
    Mr. Iseman. I am sorry, I don't actually have that number 
with me. We did look at that list, but I don't recall that 
number. I would be happy to provide that number for the record.
    Mr. Huffman. OK. Fair to say that we are probably looking 
at well over 100,000 acre-feet of water, maybe in the multiple 
hundred thousands of acre-feet?
    Mr. Iseman. Yes, I think that is fair to say, but as I 
said, I would like to check and confirm.
    Mr. Huffman. There has been some criticism by the Chair and 
others of this program for the lack of beneficiary pays, a sort 
of fiscal concern that has been levied at it. But my 
understanding is that 75 percent or greater of the cost of 
every one of these projects is borne by the locals. Is that 
correct?
    Mr. Iseman. Yes, Representative Huffman. As I mentioned, at 
least 75 percent would be borne by the local participants. And 
in fact, our cost share has actually exceeded that.
    Mr. Huffman. I think that is important, because if we are 
concerned about beneficiary pays, that is a pretty strong 
beneficiary pay component, much greater than we see for the 
surface storage and other traditional Federal water projects 
that my colleagues across the aisle consistently support.
    In the case of those projects, we are continually looking 
to redefine public benefits, which creates a subsidy that does 
not have a local cost share. We are giving them generous 
repayment terms over long periods of time at zero percent 
interest, and we are forgiving those repayments when there is 
no ability to pay. None of that applies in Title XVI.
    So, I think it is important to note, if beneficiary pays 
and fiscal responsibility is a concern, this program is a 
shining light. And I appreciate your testimony.
    Dr. Fleming. The Ranking Member yields. Dr. Gosar is 
recognized.
    Dr. Gosar. Thank you very much.
    Mr. Ledger, your testimony refers to the associated risk 
and lack of transparency from Western. How would H.R. 1869 help 
customers like Arizona Electric Power Cooperative?
    Mr. Ledger. As I said in testimony, Western's costs are 
unique in the industry. They have to supply power and 
transmission services at cost. But they are driven by costs 
that sometimes are not transparent.
    So, whereas in the market we are often able to ascertain 
the direction of costs based on fuel prices, for example, the 
costs at Western are very unique. So, it is very difficult for 
us to sort of unpack the components of those costs. And as cost 
increases occur, we are sometimes befuddled by the origins of 
those cost increases.
    Dr. Gosar. Are the Endangered Species Act compliance costs 
one of the top concerns for your organization?
    Mr. Ledger. It is among the top concerns. We, as a utility 
that operates transmission throughout the state, from time to 
time, as we site new transmission or we are doing O&M work, we 
have to be very attentive to the ESA. Obviously, we are 
concerned about the ESA impacts, the analysis that is done and 
the management of the hydropower projects that we are customers 
of, particularly the Crist project. But it is among a sort of a 
myriad of compliance requirements that we have and we operate 
every day. So it is certainly very important to us.
    Dr. Gosar. My next question is to both you and Mr. Downen.
    Much of the West has experienced multiple consecutive years 
of drought, and oftentimes releases from the dams for ESA-
listed species and other environmental mandates further 
constrains and already-dwindling supply of water. This bill 
mandates that the Federal power agencies report costs due to 
spills, fish flows, and other actions that cause loss of 
hydropower generation.
    When the generation is lost, replacement power has to be 
found. That replacement power is almost always more expensive 
and/or fossil fuel based. Are these costs borne by the 
utilities you represent?
    Mr. Downen. Representative, yes they are, is the short 
answer. All Bonneville Power costs are recouped by their 
ratepayers, and/or paid for.
    Mr. Ledger. I would repeat that.
    Dr. Gosar. And are these fixed costs? Do they fluctuate 
from year to year?
    Mr. Downen. Yes, they do, in large part due to these fish 
and wildlife costs.
    Mr. Ledger. Yes, they can be volatile.
    Dr. Gosar. Now, both Mr. Ledger and Mr. Downen, some claims 
here have been made that your rates are subsidized, and that 
these so-called costs should be listed on customers' bills. 
What are your thoughts on that claim?
    Mr. Downen first, and then Mr. Ledger.
    Mr. Downen. Well, subsidization, we don't see that at all. 
In fact, all the costs that Bonneville has are paid for by 
their ratepayers. So, I suppose that if we want to go back 
historically during the work project era over 75 years ago, the 
dams were built in assistance with the Federal Government. But 
those have long been paid out by the region's ratepayers. So, 
every cost borne by Bonneville is actually borne by that end-
of-line ratepayer.
    Dr. Gosar. Would you agree with that, Mr. Ledger?
    Mr. Ledger. I would.
    Dr. Gosar. Mr. Downen, you testified--and I quote--``In the 
case of BPA, the fish and wildlife costs in the rates the 
agency charges for wholesale power are inordinately large. At 
$757 million last year alone, this single category of costs 
accounted for about 30 percent of the BPA power costs charged 
in rates. The total BPA ratepayer cost for fish and wildlife 
since 1980 is more than $15 billion. That does not count the 
amounts contributed through other Federal, state, and local 
entities.''
    These costs are passed down to the consumer-owned electric 
utilities you represent, correct?
    Mr. Downen. That is correct.
    Dr. Gosar. Now, while I personally disagree, some people in 
this room may think these costs are not high enough, and that 
we should be spending more on fish and wildlife at taxpayer 
expense. My bill does not repeal a single environmental law or 
take a position on the amount of money being spent. All it says 
is customers have a right to know these costs. Is there 
anything wrong with allowing those paying the bills to better 
understand what they are actually paying for?
    Mr. Downen. No, Representative. I don't think there is 
anything wrong with that. In fact, as I had mentioned, the 
ratepayers of the Northwest are proud of the investment made in 
fish and wildlife mitigation. However, we believe that greater 
transparency would lead to better management of the resources 
and longer partnership between fish and wildlife mitigation and 
the ratepayers that cover those costs.
    Dr. Gosar. Mr. Downen, I thank you so very much. I yield my 
time.
    Dr. Fleming. The gentleman yields. The Chair recognizes Mr. 
Lowenthal.
    Dr. Lowenthal. Thank you, Mr. Chair. And thank you to our 
witnesses for being here today, and the Chair for including 
H.R. 2993 in this hearing, which I believe is vital legislation 
to stimulate new water recycling projects in the West.
    Let me reiterate a few of the many reasons why water 
recycling is so important to California and the arid states of 
the West.
    First, recycling is a secure and resilient source supply. 
This is a time of changing and more variable precipitation 
patterns: hotter and dryer years, as we know, and reduced snow 
packs. On the other hand, water from reclamation and recycling 
is not, and I repeat not, subject to supply disruptions in the 
ways that imported waters can be.
    Recyclable water is one of--and I think this is critical 
across the aisle--is one of the cheapest ways to increase water 
supplies, as was recently found by the non-partisan 
Congressional Research Service. It is important for our side of 
the aisle, also.
    Finally, recycling water can be done with minimal 
ecological impact, compared to increasing other kinds of supply 
sources. So, I fully support water recycling as a key piece of 
the water solutions in the West.
    I also want to take this opportunity to really highlight 
the true leadership work that my local communities have 
accomplished. It has been said, but I want to repeat the Orange 
County Sanitation District, in particular with the Orange 
County Water District, have built the largest potable water 
reuse facility in the world--in the world. The system now 
produces 100 million gallons per day of local drought-proof 
water supply, which is enough water for 850,000 people.
    Other nations come all the way to Orange County to 
understand the engineering feat accomplished in Southern 
California. And just to the north, Long Beach Mayor Robert 
Garcia is working to increase storm water capture in the San 
Gabriel River, and to complete a recycled water purification 
plant that will reduce imported water demands by 1.9 billion 
gallons per year.
    These investments have helped to protect my district in 
Southern California from drought and import dependence, and I 
have set up an internationally-recognized standard for 
sustainable water use. But these infrastructure achievements 
took time, planning, and lots of capital, and many times 
Federal Government support.
    Mr. Herberg, my question to you is, under bill H.R. 2933, 
what is your understanding of how the new process would look 
for authorizing and funding new water recycling project 
constructions that have a Federal cost share? What would happen 
to the existing authorized projects?
    Mr. Herberg. Thank you, Congressman, for that question. As 
I understand it, there would be a solicitation for projects, 
and agencies, such as the Sanitation District would submit our 
projects for consideration by the Secretary. Those projects 
would be considered alongside the projects currently residing 
in the backlog, and those projects would be evaluated based on 
the criteria that are contained in H.R. 2993.
    Dr. Lowenthal. How would this bill affect your future 
plans? Do you think it would stimulate more water recycling 
projects in the future and in the West?
    Mr. Herberg. I think it has the potential to do that 
because the bill, as we read it right now, would accelerate the 
approval process, and there would be more certainty as to the 
ability to get grant funding. That grant funding is important 
in reducing the cost per acre-foot of recycled water, so that 
it would not take as long as the current process. I think it 
would give us more certainty, going forward.
    Dr. Lowenthal. I want to thank you, and I want to thank the 
Chairman for holding this hearing on H.R. 2993, and I hope to 
see our committee act on a bipartisan manner in a markup on 
this bill soon.
    Thank you, and I yield back the balance of my time.
    Dr. Fleming. The gentleman yields back. Mr. LaMalfa is 
recognized.
    Mr. LaMalfa. Thank you, Mr. Chairman. A couple of issues 
are really important for my area, as well.
    Much money is being spent on the CVPIA to improve 
conditions for salmon. One such plan that is even touted was, 
like, a $50 million idea to truck salmon around the Shasta Dam, 
put them above in Lake Shasta, which is something I think even 
environmental groups have said would not be very successful.
    We are seeing that there was a threat earlier this year to 
not allow diversions from the Sacramento River to senior 
contractors until June 1 if the Lake did not reach a particular 
level. Then they started dumping water out of the lake to keep 
it from reaching the level so that farmers would not receive 
diversions until June 1. And if anybody knows anything about 
the spring and when you plant, that is an extreme hardship.
    Now, the lake reached the level they needed to, so the 
water will be delivered. But there was a threat that it may not 
happen. So, bringing up an earlier subject, under CVPIA, again, 
it is tasked with doubling the population of striped bass. How 
much is being done on that, I am not sure how much our striped 
bass deniers want to dispute that, but there is a very robust 
population of them, and they have devastating effects on the 
salmon population that we are trying to save.
    So, any effort that would continue to want to double that 
striped bass population, whether it is being expended, or 
whether the government is following its law or not, we have a 
problem as is.
    So what I would like to ask is, Mr. Iseman, what actions 
are Federal agencies already taking to address the predation of 
salmon in the river, whether it is striped bass or other means? 
What proactive actions are being done to do that?
    Mr. Iseman. Well, we know, under the CVPIA and the 
biological opinions, that we are taking a suite of actions to 
try to recover the fish species that includes dealing with 
predation, but also other activities to promote habitat and 
recovery of the species.
    If you would like more information about specific 
investments in dealing with predation on endangered species, we 
could provide that for the record.
    Mr. LaMalfa. Well, just off the top of your head on 
predation itself, can you give an instance of efforts that are 
being used on the predation of the salmon?
    Mr. Iseman. Well, as I said, I would prefer to consult with 
our biologists in the field and get you a more complete and 
accurate response on our----
    Mr. LaMalfa. OK. So nothing for the committee today. All 
right.
    Mr. Iseman. Sorry.
    Mr. LaMalfa. What additional actions that are not being 
done that you know of could be done on the predation?
    Mr. Iseman. Again, I would like to consult with our 
biologists, I apologize. I am just not the expert on non-native 
predation.
    Mr. LaMalfa. All right. Very good. Do you think that 
fishing regulations, if they were allowed to be updated in 
order to increase the take, removing or opening up the number 
of striped bass that can be taken by fishermen, would that be a 
positive component of the overall need?
    Mr. Iseman. Well, we know, as I said, predation is a 
significant issue. Fishing regulations are decided by the 
state----
    Mr. Costa. Would the gentleman yield?
    Mr. LaMalfa. Certainly.
    Mr. Costa. To your point, as was noted earlier, there is a 
state regulation on the limits of catch, as you are noting. 
But, for the record, I think we should state that the catch is 
two fish per day, and the length is 18 inches. That is the 
current limit.
    Mr. LaMalfa. Yes. Thank you, Mr. Costa. That is kind of 
where I am going with that, is that maybe that catch number 
should be larger, and the type of fish you could take, the size 
should be expanded as well, if we want to make significant 
gains. So I appreciate that.
    Switching gears to a different topic under CVPIA. Western 
Power, their administrator testified just a few weeks ago that 
environmental costs by the CVPIA have driven the power prices 
to twice the market rate of approximately $30 per megawatt. 
Constituents that I have in Reading, Gridley-Biggs, and other 
contractors are paid approximately $60 per megawatt, and yet 
have little information, which alludes to Mr. Gosar's bill 
about how revenues are used, or even less input on the 
decisionmaking process. So, over a billion dollars spent, and I 
better hurry here.
    Mr. Downen, do you think these purchasers of Federal power 
have made clear to them what the value is in knowing these 
costs? Or should they be in on knowing what these costs are?
    Mr. Downen. I think any transparency creates a lot better 
discussion in the Northwest or any region of the country. So, 
yes, I think that these costs should be put on the PMA power 
bill.
    Mr. LaMalfa. My understanding is that these contracts could 
run out fairly soon, and they can see other contractors to get 
this power from, leaving the CVP.
    Mr. Chairman, I will yield back. Will we have a second 
round a little bit later?
    Dr. Fleming. We do not have a plan for a second round.
    Mr. LaMalfa. OK.
    Dr. Fleming. Do you have a quick question you want to go 
ahead and dispatch, or we will go to Mr. Costa next, but I want 
to make sure you are----
    Mr. LaMalfa. Thank you. I appreciate the indulgence on 
that.
    Dr. Fleming. Yes.
    Mr. LaMalfa. So, as it is, the contractors who CVPIA--they 
receive little more than just a bill. If there was greater 
transparency--do you think the ratepayers receive enough 
information, as is?
    Mr. Downen. I think that this additional information would 
be very useful, because per your earlier comment, the 
ratepayers, the utilities in the Pacific Northwest currently 
have long-term contracts that are 20-year contracts but 12 
years from expiring. And at that time, yes, they can leave 
Bonneville Power to have their electricity loads met in other 
ways. If we continue to see these cost trajectories with fish 
and wildlife, utilities could leave Bonneville Power and that 
would essentially negate a fish program, because without 
ratepayers to pay for the fish program, it is very difficult 
for Bonneville to find funding. So, yes----
    Mr. LaMalfa. So, perhaps they would feel a little bit 
better about the process if it was disclosed and maybe continue 
to be contractors in the future. All right. Thank you, Mr. 
Chairman, I appreciate the extra time.
    Dr. Fleming. OK. Mr. Costa is recognized.
    Mr. Costa. Thank you very much, Mr. Chairman and Ranking 
Member. I want to confine my comments and questions to the Save 
our Salmon Act, H.R. 4582, that Congressman Denham has 
introduced, and that Congressman Garamendi and I are co-
sponsors of. And my comments or questions will be confined to 
Dr. Hanson and to Mr. Iseman.
    As we deal with the salmon recovery, Salmonid Recovery Act, 
that was noted by Mr. Iseman, that NOAA has been attempting to 
implement with the CVPIA program, what are the percentage of 
numbers that you used for native and non-native species within 
the Sacramento-San Joaquin Delta? How much are native, how much 
are non-native? Dr. Hanson?
    Dr. Hanson. In terms of abundance, I would say there are 
probably 80 percent non-native species and about 20 percent 
native species, currently.
    Mr. Costa. Would you agree with that number, Mr. Iseman?
    Mr. Iseman. I don't have any reason to disagree, and I 
could check with our biologists in the field for the record.
    Mr. Costa. All right. When we talk about the Save our 
Salmon Act and the predator problem that we are dealing with, 
and in essence, acknowledging that 80 percent of the fisheries 
there are non-native to the Sacramento-San Joaquin River 
systems and that 20 percent are native, this makes a very 
difficult challenge that we face.
    Richard Pool with the Salmon Fisheries Federation testified 
last month before the committee that there had been 31 pilot 
programs proposed. I believe that was the number. And none of 
them have been implemented. Dr. Hanson, Mr. Iseman, can you 
indicate why none of these predator control programs, as part 
of the recovery plan, have been implemented? Mr. Iseman?
    Mr. Iseman. Representative Costa, I was trying to address 
this question earlier. I am not aware of the specific 
information----
    Mr. Costa. Well, become aware of it and provide the 
information to us----
    Mr. Iseman. Yes, we will provide the information for the 
record.
    Mr. Costa [continuing]. Because I want to enter it for the 
record. I have here the winter-run Chinook salmon stressor 
matrix that is part of the recovery plan that was prepared by 
NOAA in July 2014. This is part of the recovery plan. And it 
states in here the various impacts of trying to deal with 
native species and recovery. It lists them very high or high, 
in terms of the overall stressor category. And high on the list 
are loss of habitat, predation, predation, loss of habitat, 
water quality, water temperature, loss of spawning 
availability, water temperature, harvesting and angling 
impacts. Although it is an impact, and we have always 
acknowledged it as an impact, it is 24th on the list before you 
get to the level of entrainment by the Delta pumps, either the 
Central Valley or the State Water Projects.
    So, it is amazing that we have a recovery plan, but all the 
other impacts as a part of recovery plan are not being done. We 
are using one management tool, as I was told yesterday by the 
head of the U.S. Fish and Wildlife, and that is the pumping 
issue that is a problem.
    Do you think politics might be a problem with this, Dr. 
Hanson? You are familiar with legislation that was introduced 
in the State legislature to increase the catch, and that did 
not go anywhere.
    Dr. Hanson. That did not go anywhere. We have had a number 
of discussions with Dick Pool and others regarding these 
various actions, and there is support for these actions. But I 
do believe there are politics----
    Mr. Costa. Why do you think we could implement either our 
politics--and, Dr. Iseman, we have predator programs on the 
Columbia River that have been implemented, but not on the 
Sacramento-San Joaquin River. I am at a loss to figure out why. 
When you are responding to us, could you do that comparative 
analogy?
    Mr. Iseman. Absolutely, we will provide that information.
    Mr. Costa. Yes. It is very frustrating, because we look at 
trying to do all the tools in our management toolbox during 
devastating drought conditions that have affected the San 
Joaquin Valley, ground zero, and yet we continue to play 
politics with this, in terms of our regional approach.
    My time is running out, but Peter Moyle, noted biologist, 
has indicated that, in his view, as a result of climate change, 
which we have not even talked about, that a lot of the native 
species in this area, the Sacramento-San Joaquin River, will 
probably go extinct in the next 20 to 40 years. Do you agree 
with that, Dr. Hanson?
    Dr. Hanson. I agree with Dr. Moyle, that climate change is 
a huge issue facing salmonid populations in the Central Valley. 
I do not have an opinion with regard to the specific time 
frame. But Chinook salmon in the Central Valley are on the 
southern edge of their geographic distribution. Hydrology, 
drought, and water temperature are all major drivers of 
population success. And to the extent that climate change, over 
time, increases seasonal water temperature, that will be 
devastating to Chinook salmon spawning.
    So, I agree with the philosophy, I just don't know 
specifically about the time frame.
    Mr. Costa. Which begs the question, what are we trying to 
do here in a recovery plan, it seems to me, in terms of logic?
    My time has expired, but just a note for the subcommittee, 
because Congressman LaMalfa and I get into the weeds in this 
kind of stuff, along with my other California colleagues. Last 
year, we stopped the movement of water because of 1 degree of 
temperature on the Sacramento River between 56 and 57 degrees 
of water temperature in which we had to curtail our ability to 
move water.
    So, it begs the question. How do we make this thing work, 
given the constrictions that we are facing in trying to provide 
water for an entire state?
    Thank you. I yield back.
    Dr. Fleming. The gentleman yields back. Mr. Newhouse is 
recognized.
    Mr. Newhouse. Thank you, Mr. Chairman. Thank you all for 
being here this morning and discussing these three important 
bills. I want to focus first on H.R. 1869, which I think is a 
good step in transparency.
    I have heard some people claim that this potentially could, 
as it requires reporting of costs, be considered an attack on 
the Endangered Species Act and would question also why other 
costs are not included in this bill.
    So, to Mr. Downen, could you respond to those claims? Are 
they valid, in your opinion?
    Mr. Downen. No, we do not see this as an attack on the 
Endangered Species Act. We realize that is a Federal law, and 
the biological opinion on the Columbia River meets the 
requirements of that law and is a federally-created plan for 
mitigating for the dams there. So, there is no effort to shirk 
any duties that we have regionally to comply with the ESA.
    I apologize, your second question?
    Mr. Newhouse. Well, I just want to let you expound, I think 
I heard you say that people in the Northwest take some 
ownership or pride in the fact that we are doing some good 
things.
    Mr. Downen. Yes. The Northwest does take some pride and 
ownership in that. And I believe that, by exhibiting this on 
the Bonneville Power bill, there would be greater discussion as 
to what is actually being accomplished for those ratepayer 
dollars, and there would be greater efficiencies made if that 
conversation was held a little more broadly across the region.
    Mr. Newhouse. So, if people actually knew what their money 
is being used for. Some may also argue that a utility and its 
ratepayers could find this information without this kind of a 
requirement. Is that the case? And do some utilities maybe not 
even possess this information?
    Mr. Downen. There is currently no specific codified process 
in place that allows utilities to find this information out. 
Bonneville, to its credit, does like to work with its customers 
to help its customers be as informed as possible.
    However, we do believe that this bill would be beneficial 
to the Northwest in codifying this, as well as our neighbors to 
the south and elsewhere who do not perhaps have that same 
opportunity to work with their PMAs and find out this 
information in a more transparent manner.
    Mr. Newhouse. OK. And then just quickly, Mr. Downen, public 
utilities face a certain amount of litigation from 
environmental groups. But I would think that most of the public 
at this point, maybe because they do not see what they are 
paying for, is unaware of the work that is being done by public 
utilities on fish recovery.
    I don't know if that is a fair statement in your 
estimation, but could you talk a little bit about some of that 
work, some of the survival rates of some of the fish species in 
Central Washington, and maybe highlight ways in which the BPA 
and the mid-Columbia PUDs are actually pretty good stewards of 
our natural resources?
    Mr. Downen. Thank you, Congressman. The utilities in the 
Northwest make a huge investment in that federally-designed 
plan that I was talking about, and are good stewards of the 
river and the region. I cannot give you, off the top of my 
head, survival rates of passage, both for juveniles and adults 
at each project along the Columbia and Snake Rivers, but the 
biological opinion requires those to be in the high 90 percent. 
And to date, those are being met or close to being met at all 
of the projects.
    There are miles of stream that have been improved over the 
last several years for fish. There are spawning grounds that 
have been improved. A number of things are being done by the 
state and Federal agencies, but funded by the utilities in the 
Northwest.
    Mr. Newhouse. Good. Thank you very much.
    And with that, Mr. Chairman, I would like to yield some of 
my time to Mr. LaMalfa, if that is possible.
    Thank you, Mr. Downen.
    Mr. Downen. Thank you.
    Mr. LaMalfa. I will go ahead and yield the time back. Mr. 
Denham is here. I think he would like to probably weigh in 
pretty well on his bill, so I will defer back. Thank you, Mr. 
Newhouse.
    Dr. Fleming. Yes, well, we are out of time for Mr. 
Newhouse. So the Chair now recognizes Mr. Denham.
    Mr. Denham. Thank you, Mr. Chairman. Just a couple of quick 
follow-up questions.
    Mr. Iseman, in your written testimony you indicated a few 
other changes to the CVPIA that would be necessary to 
accomplish my bill's intent to remove the striped bass doubling 
goal. Can you please explain?
    Mr. Iseman. Yes. We believe there are other references to 
anadromous fish throughout the bill that we would want to 
correct. We think these are minor technical corrections, and we 
would be happy to work with you and your staff to help provide 
those proposed changes.
    Mr. Denham. Thank you. Is it your understanding that the 
Administration would support the bill if we made the additional 
suggested changes that you have offered in your written 
testimony?
    Mr. Iseman. Yes, that is correct. We would support the bill 
if we made those additional changes.
    Mr. Denham. Thank you. I yield back.
    Dr. Fleming. The gentleman yields back.
    Again, we thank the panel for your participation, your 
valuable testimony, and for answering questions. There could be 
follow-up questions in writing. We would ask that you respond 
within 10 days.
    If there is no further business before this subcommittee, 
we are hereby adjourned.

    [Whereupon, at 11:37 a.m., the subcommittee was adjourned.]

            [ADDITIONAL MATERIALS SUBMITTED FOR THE RECORD]

 Prepared Statement of David Guy, President, Northern California Water 
                        Association on H.R. 4582
    Chairman Fleming, Ranking Member Huffman, and members of the 
subcommittee, my name is David Guy. I am the president of the Northern 
California Water Association (NCWA), representing the water suppliers, 
rural communities and landowners that beneficially use both surface and 
groundwater water resources in the Sacramento Valley. The precious 
water resources in this region are managed for multiple beneficial 
uses, including domestic deliveries to cities and rural communities and 
supplying water for farms and habitat for the magnificent fish and 
birds that grace the region. Nowhere are the natural and human 
resources more closely integrated and cared for than the Sacramento 
Valley.
    For the past several decades, water resources managers, 
conservation organizations and Federal and state agencies have been 
collaborating and working hard to advance both environmental and 
economic stewardship across this special region. This includes an 
aggressive implementation program to recover endangered and threatened 
salmon and steelhead, including the National Oceanic and Atmospheric 
Administration (NOAA) Recovery Plan and the Sacramento Valley Salmon 
Recovery Program.
    We appreciate the opportunity today to submit this testimony in 
support of the Save Our Salmon Act (H.R. 4582) as an important 
incremental step forward for the recovery of salmon and steelhead. From 
our perspective, removing striped bass from the Central Valley Project 
Improvement Act's (CVPIA) doubling goal is important for several 
reasons. The Save Our Salmon Act will:

  1.  Acknowledge that predation is a serious problem affecting 
            endangered salmon and steelhead. It is well known and 
            documented that striped bass, which are not native to 
            California, prey on native salmon and steelhead and thus 
            pose a serious threat to their existence and survival. Both 
            the NOAA Fisheries and independent research has shown that 
            predation from non-native species, such as the striped 
            bass, is a significant stressor on salmon and steelhead 
            populations and threatens the existence of these species. 
            It is therefore important that Federal policy reflect this 
            dynamic and not encourage the proliferation of these 
            introduced predators.

  2.  Make the Federal fish doubling objective more consistent with the 
            state of California's salmon doubling objective in Water 
            Code Sec. 6902.

  3.  Help protect the significant investments that will continue to be 
            made to recover endangered and threatened salmon and 
            steelhead in the Sacramento Valley.

    To be sure, predation is not the only stressor on salmon and 
steelhead and this bill will not recover salmon as a stand-alone 
measure. The Save Our Salmon Act, however, is an important incremental 
step forward to address one of the obvious stressors on salmon and 
steelhead during various life-stages. Until significant progress is 
made to address predation issues, we will not realize the full benefit 
of upstream actions that have and will continue to be taken in the 
Sacramento Valley as part of the Sacramento Valley Salmon Recovery 
Program.
    The CVIPA's requirement to protect both introduced predatory 
striped bass and federally-protected native salmonids is a 
contradiction of statute and science. Recovery efforts for endangered 
and threatened salmon and steelhead will continue to be undermined by 
contradictory and counterproductive striped bass recovery objectives as 
long as the Federal agencies are required to support a top-level non-
native predator that is devastating the species the Federal Government 
is obligated by law to protect.
    We respectfully urge the subcommittee's favorable consideration of 
this important bill to end the contradictory doubling goal for striped 
bass. Thank you for the opportunity to provide our perspective through 
this testimony.

                                 ______
                                 

                    Letters of Support for H.R. 4582

           Association of California Water Agencies

                                                      April 6, 2016

Hon. Jeff Denham
U.S. House of Representatives
Longworth House Office Building
Washington, DC 20515

Re: ACWA Support for H.R. 4582, ``Save Our Salmon Act''

    Dear Representative Denham:

    The Association of California Water Agencies (ACWA) is pleased to 
support your legislation, H.R. 4582, the ``Save Our Salmon Act.'' ACWA 
appreciates your leadership on this issue. As you know, ACWA's 430 
public water agency members supply over 90 percent of the water 
delivered in California for residential, agricultural, and municipal 
uses.
    H.R. 4582 eliminates the doubling requirement established by the 
Central Valley Project Improvement Act of 1992 (CVPIA) for striped 
bass, a known predator fish of threatened and endangered salmon and 
steelhead. By eliminating the doubling requirement for striped bass, 
federal policy will no longer spend money on both fish that need to be 
saved and fish that want to eat them.
    Again, ACWA is pleased to provide support for H.R. 4582 and we look 
forward to working with you to secure its passage.

            Sincerely,

                                         David L. Reynolds,
                                     Director of Federal Relations.

                                 ______
                                 

       The Metropolitan Water District of Southern 
                                         California

                                                      April 5, 2016

Hon. Jeff Denham
U.S. House of Representatives
Longworth House Office Building
Washington, DC 20515

    Dear Representative Denham:

    Metropolitan is pleased to support H.R. 4582, the Save our Salmon 
Act of 2016 which would exclude striped bass from the anadromous fish 
doubling requirement in the Central Valley Project Improvement Act of 
1992 (CVPIA). This legislation helps advance California's co-equal 
goals of improving water supply reliability and ecosystem restoration 
and is consistent with our Board's previous policy directive to reduce 
stressors impacting listed species in the Delta in accordance with 
Metropolitan's Delta Action Plan.
    Metropolitan has long advocated for legislative policies to reduce 
predation among the many stressors harming California's native and 
endangered species, including helping to advance state legislation, AB 
2336, in 2010 by then Assembly Member Jean Fuller.
    The striped bass in the Bay-Delta region is a non-native species 
and a major predator of several listed species in the Delta and Delta 
watershed, including salmon and Delta smelt. Predator control and 
effective reduction will help protect these species and achieve 
significant conservation objectives within the scope of California 
WaterFix and California EcoRestore objectives.
    Removing striped bass from the anadromous fish doubling goal in the 
Central Valley Improvement Act of 1992 would also remove from Federal 
law a goal that is inconsistent with the Endangered Species Act and the 
California Endangered Species Act, which aim to take all conservation 
measures to recover listed species to the point they can be de-listed.
    Metropolitan, along with other Delta water stakeholders, believes 
the current requirement for doubling this predator could lead to the 
extinction or extirpation of listed prey species. If striped bass 
populations were doubled in the Delta, it could lead to additional 
pumping restrictions for the State Water Project and Central Valley 
Project as listed prey species further decline, further reducing water 
supply reliability for urban and agricultural water providers.

    It is our hope that H.R. 4582 will move expeditiously through the 
114th Congress and be enacted into law this year.

            Sincerely,

                                       Jeffrey Kightlinger,
                                                   General Manager.

                                 ______
                                 

                        Modesto Irrigation District
                              & Turlock Irrigation District

                                                      March 9, 2016

Hon. Jeff Denham
U.S. House of Representatives
Longworth House Office Building
Washington, DC 20515

Re: Support for H.R. 4582, the Save Our Salmon Act of 2016

    Dear Representative Denham:

    The Modesto Irrigation District (MID) and Turlock Irrigation 
District (TID) support your newly introduced H.R. 4582, the Save Our 
Salmon Act of 2016. Predation by striped bass and other non-native fish 
is causing a significant decline in the number of native salmon 
migrating from the Tuolumne River, and we appreciate your continued 
efforts to identify common-sense solutions to this problem.

    Though MID and TID are not involved in the Central Valley Project, 
we support your efforts to remove the doubling requirement for striped 
bass from the Central Valley Project Improvement Act. H.R. 4582 will 
bring greater awareness of the impact of predation on native salmon 
evident throughout California. This is critical to addressing--and 
hopefully reversing--the ongoing salmon decline in the Sacramento-San 
Joaquin Delta, as well as the Sacramento and San Joaquin Rivers.

    MID and TID are currently in the process of relicensing the Don 
Pedro Project with the Federal Energy Regulatory Commission (FERC). 
Through the relicensing process, we have conducted 33 studies to 
provide an accurate representation of the current condition of the 
reservoir and the lower Tuolumne River. One study to note is our 2012 
predation study, which FERC required us to perform in order to evaluate 
the impact that predation by non-native fish is having on the migration 
of salmon from the lower Tuolumne River. This study determined that 
more than 90% of the out-migrating smolts were consumed by non-native 
largemouth, smallmouth and striped bass prior to reaching the San 
Joaquin River. MID and TID continue to advocate for solutions that 
rationally address the proven threat of predation.

    Again, we strongly support H.R. 4582, and appreciate your ongoing 
efforts to curb the effects of predation on the salmon population. We 
look forward to working with you and your staff on this legislation.

            Cordially,

        Greg Salyer, Int. General 
        Manager,                      Casey Hashimoto, General Manager,
        Modesto Irrigation 
        District.                     Turlock Irrigation District.
              Northern California Water Association

                                                     March 31, 2016

Hon. Jeff Denham
U.S. House of Representatives
Longworth House Office Building
Washington, DC 20515

Re: Support for the Save Our Salmon Act (H.R. 4582)

    Dear Representative Denham:

    The Northern California Water Association (NCWA) would like to 
express its support for the Save Our Salmon Act (H.R. 4582). Water 
suppliers, conservation organizations, and federal, state and local 
governments have invested millions of dollars into the recovery of 
endangered and threatened salmon and steelhead in the Sacramento River 
basin and we will continue to advance the Sacramento Valley Salmon 
Recovery Program. By removing the Central Valley Project Improvement 
Act's (CVPIA) doubling goal for striped bass, the Save Our Salmon Act 
will help ensure that investments made to recover endangered and 
threatened salmon and steelhead in the Sacramento River basin are not 
undermined by contradictory and counterproductive striped bass recovery 
objectives.
    Striped bass, which are not native to California, prey on native 
salmon and steelhead and pose a serious threat to their survival. Both 
the National Marine Fisheries Service and independent research has 
shown that predation from non-native species such as the striped bass 
is not only a significant stressor on salmon and steelhead populations 
but also a threat to the existence of the species. Until significant 
progress is made to address predation issues, many benefits of upstream 
actions, such as those taken by NCWA, Sacramento Valley water suppliers 
and conservation organizations.
    Removing striped bass from the CVPIA's doubling goal will also make 
the federal fish doubling objective more consistent with the State of 
California's salmonid doubling objective in Water Code section 6902.
    The CVIPA's requirement to protect both introduced predatory 
striped bass and federally-protected native salmonids is a 
contradiction of statute and science. Recovery efforts for endangered 
and threatened salmon and steelhead will continue to be hindered so 
long as the federal government is required to support a top-level non-
native predator that is devastating the very species the federal 
government is obligated by law to protect.
    Predation is not the only stressor on salmon, but the Save Our 
Salmon Act is an important step toward addressing the serious predation 
problem affecting important native anadromous fish populations in the 
Sacramento River basin. We appreciate your efforts to end the arbitrary 
doubling goal for striped bass and will continue to express our support 
for this important legislation.

            Sincerely yours,

                                              David J. Guy,
                                                         President.

                                 ______
                                 

                        Oakdale Irrigation District
                    & South San Joaquin Irrigation District

                                                  February 29, 2016

Hon. Jeff Denham
U.S. House of Representatives
Longworth House Office Building
Washington, DC 20515

Re: Save Our Salmon Act

    Dear Representative Denham:

    Our agencies commend you for the introduction of the Save Our 
Salmon Act of 2016, which provides necessary and responsible relief 
from illogical goals for striped bass populations in California. You 
have our full support in your effort to remove the doubling requirement 
for striped bass contained in the Central Valley Project Improvement 
Act of 1992.
    As H.R. 4582 states, the CVPIA mandated doubling the population of 
all anadromous fish as part of an effort to protect fish. That may have 
made sense in 1992, but certainly does not today. The CVPIA is not 
supported by the science that has been conducted that clearly shows 
striped bass to be a voracious predator and a prime contributor to the 
decline of endangered salmon and steelhead populations in California. 
In fact, a study on the Tuolumne River indicated that striped bass eat 
more than 90% of young salmon and steelhead before they can make their 
way to the Pacific Ocean.

    We also agree with you that the CVPIA has required millions of 
acre-feet of water to be wastefully sent down Central Valley rivers to 
the ocean. By itself, more water is not the solution to helping 
endangered fish populations. Efforts to reduce predation and restore 
spawning habitat are equally vital.

    Finally, during a time of serious drought in California, we join 
with other agencies in support of sensible water management policies 
that balance the needs of agriculture, families and environmental 
needs.

    We applaud your consistent efforts to combat predation that 
devastates salmon and steelhead populations as well as your ideas to 
responsibly manage California's water system.

    Please let us know what else we can do to assist you.

            Respectfully,
        Steve Knell,                  Peter Rietkerk,
        Oakdale Irrigation 
        District.                     South San Joaquin Irrigation 
                                      District.

                                 ______
                                 

                                                     April 11, 2016

Hon. Jeff Denham
U.S. House of Representatives
Longworth House Office Building
Washington, DC 20515

    Dear Representative Denham:

    We are writing to inform you of our collective support for your 
bill, H.R. 4582, the Save Our Salmon Act. We believe your bill 
represents much-needed common sense reform to the Central Valley 
Project Improvement Act (CVPIA).

    As you know, the enactment of CVPIA in 1992 set a goal of doubling 
the number of striped bass, a non-native species that, ironically, 
feeds on endangered listed species. This predation is one of the 
primary stressors that negatively affects the effort to recover 
endangered Chinook salmon and Delta Smelt. Additionally, regulatory 
actions associated with this doubling mandate and the desire to 
``save'' other Delta species has resulted in the startling and absurd 
mismanagement of California's water supply at a time when project 
operators should be maximizing water deliveries to enable the state to 
recover from the past three years of drought. Therefore, as you 
rightfully stated in your press release, ``We must stop the crazy cycle 
of spending money on both the fish we want to save and the fish that 
kill them.''

    We appreciate your bipartisan efforts to bring this issue to light 
and look forward to working with you to move the legislation through 
the Congress.

            Sincerely,

        Thomas W. Birmingham, Gen. 
        Manager,                      Steve Chedester, General Manager,
        Westlands Water District.     SJR Exchange Contractors.

        Curtis Creel, General 
        Manager,                      Dave Orth, General Manager,
        Kern County Water Agency.     Friant North Authority.
        Jason Peltier, Exec. 
        Director,                     Jason Phillips, CEO,
        San Luis & Delta-Mendota 
        Water Authority.              Friant Water Authority.

        Dan Vink, Executive 
        Director,
        South Valley Water 
        Association.

                                 ______
                                 

                      Tehama-Colusa Canal Authority

                                                      March 8, 2016

Hon. Jeff Denham
U.S. House of Representatives
Longworth House Office Building
Washington, DC 20515

Re: Tehama Colusa Canal Authority for H.R. 4582--The Save Our Salmon 
        Act

    Dear Representative Denham:

    On behalf of the Tehama Colusa Canal Authority (TCCA), I wish to 
report the unanimous vote of my Board of Directors in support of your 
recent legislation, H.R. 4582--The Save Our Salmon Act. We applaud your 
efforts to pursue this simple, straightforward, but desperately needed, 
common sense reform to the Central Valley Project Improvement Act 
(CVPIA).

    The continued statutory mandate in the CVPIA to set a goal of 
doubling the number of striped bass, a non-native, predator fish 
species, that feeds on listed fish species, and is one of the primary 
stressors that is negatively impacting California's effort to recover 
endangered populations of Chinook salmon and Delta smelt, is an 
exercise in the absurd. Regulatory actions associated with recovering 
these endangered species have crippled the effective management of our 
water supplies in California. Yet, unbelievably, we continue to retain 
a legal requirement to increase their numbers. This irrational policy 
is the equivalent of ``trying to fix a leaky roof by punching more 
holes in it.''

    The TCCA greatly appreciates your efforts to reform this outdated 
and misguided policy. Also, we greatly applaud your bipartisan approach 
to effectuate this reform, and likewise thank your cosponsors: 
Congressman Costa, Congressman Garamendi, and Congressman McClintock. 
In conclusion, TCCA again reiterates its unwavering support of H.R. 
4582--The Save Our Salmon Act.

            Sincerely,

                                         Jeffrey P. Sutton,
                                                   General Manager.

                                 [all]
</pre></body></html>
